<html>
<title> - NOMINATION OF DR. BENJAMIN CARSON, OF MICHIGAN, TO BE SECRETARY, DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT</title>
<body><pre>[Senate Hearing 115-3]
[From the U.S. Government Publishing Office]





                                                          S. Hrg. 115-3


                   NOMINATION OF DR. BENJAMIN CARSON

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

 THE NOMINATION OF DR. BENJAMIN CARSON, OF MICHIGAN, TO BE SECRETARY, 
              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

                               __________

                            JANUARY 12, 2017

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                 Available at: http://www.fdsys.gov/
                 




                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-428 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
























            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
BOB CORKER, Tennessee                JACK REED, Rhode Island
PATRICK J. TOOMEY, Pennsylvania      ROBERT MENENDEZ, New Jersey
DEAN HELLER, Nevada                  JON TESTER, Montana
TIM SCOTT, South Carolina            MARK R. WARNER, Virginia
BEN SASSE, Nebraska                  ELIZABETH WARREN, Massachusetts
TOM COTTON, Arkansas                 HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada

                     Gregg Richard, Staff Director
                 Mark Powden, Democratic Staff Director
                      Elad Roisman, Chief Counsel
                      Travis Hill, Senior Counsel
                Graham Steele, Democratic Chief Counsel
            Laura Swanson, Democratic Deputy Staff Director
           Beth Cooper, Democratic Professional Staff Member
            Erin Barry, Democratic Professional Staff Member
                       Dawn Ratliff, Chief Clerk
                      Shelvin Simmons, IT Director
                          Jim Crowell, Editor

                                  (ii)


























                            C O N T E N T S

                              ----------                              

                       THURSDAY, JANUARY 12, 2017

                                                                   Page

Opening statement of Chairman Crapo..............................     1

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     3

                                WITNESS

Marco Rubio, Senator from the State of Florida...................     5

                                NOMINEE

Dr. Benjamin Carson, of Michigan, to be Secretary, Department of 
  Housing and Urban Development..................................     7
    Prepared statement...........................................    49
    Biographical sketch of nominee...............................    53
    Responses to written questions of:
        Senator Brown............................................    91
        Senator Shelby...........................................   102
        Senator Heller...........................................   104
        Senator Sasse............................................   107
        Senator Reed.............................................   109
        Senator Menendez.........................................   113
        Senator Warren...........................................   130
        Senator Donnelly.........................................   142
        Senator Schatz...........................................   143
        Senator Van Hollen.......................................   145
        Senator Cortez Masto.....................................   147

              Additional Material Supplied for the Record

Letters and statements submitted in support of the nomination of 
  Dr. Benjamin Carson............................................   149
Letters and statements submitted in opposition to the nomination 
  of Dr. Benjamin Carson.........................................   177

                                 (iii)

 
   NOMINATION OF DR. BENJAMIN CARSON, OF MICHIGAN, TO BE SECRETARY, 
              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

                              ----------                              


                       THURSDAY, JANUARY 12, 2017

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:03 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Mike Crapo, Chairman of the 
Committee, presiding.

            OPENING STATEMENT OF CHAIRMAN MIKE CRAPO

    Chairman Crapo. This hearing will come to order.
    The first thing this morning, I want to welcome the new 
Members to the Senate Banking Committee: Senator David Perdue--
is he here yet?
    Senator Tillis. He is in Senate Armed Services.
    Chairman Crapo. OK. We do have a number of hearings going 
on this morning. We will see him in just a moment, I am sure. 
Senator Thom Tillis. Welcome, Senator Tillis. Senator John 
Kennedy, welcome. Senator Brian Schatz. Welcome, Brian. Senator 
Chris Van Hollen, welcome. And Senator Catherine Cortez Masto, 
welcome. We appreciate all of you, and I am sure I speak for 
all of the regular old Members of the Committee that we welcome 
you here and we look forward to a lot good work.
    Senator Warren. Earlier Members.
    Chairman Crapo. Earlier Members of the Committee.
    [Laughter.]
    Chairman Crapo. I was just told by both sides to speak for 
myself.
    [Laughter.]
    Chairman Crapo. I look forward to working with all of us on 
the Committee, all Members of the Committee this year. And, you 
know, this Committee has a long and distinguished history of 
tackling important and complicated issues, and this Congress is 
no exception. In fact, we have a significant list of important 
issues that we will need to deal with, and we will do that, and 
I am confident that we will continue this tradition. My hope is 
we will do it in a strong bipartisan manner.
    I particularly look forward to working with my colleague 
Sherrod Brown as our Ranking Member. Sherrod and I have had a 
number of meetings already on these issues that we will be 
dealing with, and we will work to lead this Committee through 
some very important territory during this session.
    This morning we will hear testimony on the nomination for 
the Secretary of the United States Department of Housing and 
Urban Development. We will begin today's hearing with an 
opening statement by me and the Ranking Member, and we will 
then turn to Senator Rubio, who will introduce the Secretary-
Designate, Dr. Benjamin Carson. And welcome, Dr. Carson, to the 
Committee.
    We will then follow the early bird rule, meaning that 
Members will be recognized by the Chair in the order of 
seniority for those who were present at the time the gavel came 
down and in order of arrival thereafter. Each Member will be 
allotted 5 minutes for the number of rounds that time will 
permit.
    Dr. Benjamin Carson was raised by a single mother in an 
impoverished part of the city of Detroit. He attended Yale 
University and the University of Michigan Medical School, and 
later became a highly accomplished and respected neurosurgeon. 
Dr. Carson was named director of pediatric neurosurgery at 
Johns Hopkins Hospital in 1984, at the age of 33, the youngest 
such director in the Nation. He gained national fame in the 
1980s by becoming the first doctor to lead an operation that 
separated twins conjoined at the head, one of many high-profile 
operations led by Dr. Carson.
    In addition to his successful career as a surgeon, Dr. 
Carson is also a decorated author, a speaker who has written 
numerous best-selling books on a range of topics. He also ran 
for President in this past election and spent months traveling 
the country and listening to the American people about the 
problems and issues that they face, including with respect to 
housing.
    Throughout his career, Dr. Carson has achieved a great deal 
of success. He has demonstrated a fervent intensity for 
improving the lives of his fellow Americans, and his intellect, 
leadership, and life experiences are unique, valuable assets 
for leading an agency like HUD. Dr. Carson has said he plans to 
continue his conversation with the American people and do a 
listening tour, if confirmed. This is an encouraging sign that 
Dr. Carson wants to hear from stakeholders and, more 
importantly, from the American people.
    I hope to work with Dr. Carson on how to reimagine housing 
policy at HUD. I look forward to working on streamlining 
requirements for local public housing authorities, especially 
for smaller housing authorities. One example is the Small 
Public Housing Authority Opportunities Act, which seeks to 
encourage innovative approaches to determining tenant rents and 
to adjust the level of Federal oversight over small housing 
authorities. We should also look at the Section 8 Moving to 
Work rental assistance demonstration and public housing 
programs, where there has been interest in reform for many 
years.
    I hope to work with Dr. Carson on improvements to the 
programs that would produce cost-savings, reduce burdens on 
local housing authorities, and encourage self-sufficiency.
    Another issue this Committee has worked on are home equity 
conversion mortgages, which we call around here ``HECMs.'' It 
is important that we evaluate these important parts of our 
system, and I look forward to working with you on that program 
as well, Dr. Carson.
    While the low-income housing tax credit is under Finance 
Committee's jurisdiction, it is very important to us in the 
U.S. housing market. It provides essential capital to 
underserved communities and provides key financing for small 
and rural affordable housing developments.
    Tackling our homelessness, especially among our Nation's 
veterans, is another issue that is important to me and other 
Members of this Committee. It is critical that HUD allow local 
communities to craft solutions that work best for their 
community needs. I hope to work with Dr. Carson and with other 
Members of this Committee on these and many other issues of 
critical need.
    At this time I would like to ask unanimous consent to enter 
into the record 17 letters and other statements that have been 
submitted in support of Dr. Carson's nomination. I will not at 
this point read all of them. I suspect throughout the hearing 
we may read or reference to a number of these letters, but I do 
want to just highlight a couple of the first few. This includes 
letters from Bart Harvey, the former Chair and CEO of 
Enterprise Community Partners and a long-time affordable 
housing advocate. It also includes a bipartisan letter from 
four former HUD secretaries: Henry Cisneros, former Senator Mel 
Martinez, Alphonso Jackson, and Steven Preston.
    Without objection, so ordered.
    I look forward to hearing from Dr. Carson today. Before we 
do that, though, we are going to turn first to Senator Brown. 
Senator.

               STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman. Thanks for holding 
this hearing. Congratulations on your new role in leading this 
Committee.
    I echo what Senator Crapo said about his and my 
relationship. We have worked together on the Finance Committee 
on a number of issues and known each other for many years and 
had three or four already productive meetings since it was 
clear that he was going to be the Chairman of this Committee.
    I welcome our new Members: Senator Schatz, Senator Van 
Hollen, Senator Cortez Masto--good to see you--Senator Kennedy, 
Senator Tillis, and Senator Perdue. Glad that all of you are on 
the Committee. I look forward to working with each of you.
    Dr. Carson, I welcome you. Mrs. Carson, it was nice to meet 
you today, and I have not yet met your sons, and I have not met 
your lovely little granddaughter. I know you have a couple of 
other granddaughters that could not make it today. I want to 
thank you for your willingness to serve our country along with 
your husband and father and grandfather.
    As Chairman Crapo noted, Dr. Carson is a distinguished 
neurosurgeon. His remarkable life story is well known to all of 
us and to millions of Americans. He is an inspiration and a 
testament to the American dream.
    Much as we might wish otherwise, many children will not 
have the same combination of fortitude and a firm hand and a 
good fortune that allowed Dr. Carson to rise to the highest 
levels of medicine and the highest levels of our society. For 
some perspective, one study of medical students showed that 
only about 5 percent came from households with incomes under 
$20,000. Different research has shown that only 1 in 13 
Americans will move from the lowest income quintile to the 
highest over a lifetime.
    Of course, we encourage, and should encourage, children and 
adults to follow Dr. Carson's example of getting a good 
education, working hard, and all that he has done. We should 
bear in mind, though, that many still face significant barriers 
to realizing that potential. For those who cannot overcome the 
odds on their own, should we not help them? Dr. Carson has 
repeatedly commented that Government assistance programs are 
harmful. He wrote that in the wake of the civil rights 
movement, ``racist people from both parties adopted a 
paternalistic attitude toward African Americans and enacted 
Federal and State programs designed to take care of people who 
could not take care of themselves, people who were ignorant, 
stupid, or just plain lazy.''
    Why would we do this? To again quote Dr. Carson, ``the only 
reason I can imagine that it would be a good idea for 
Government to foster dependency in large groups of citizens is 
to cultivate a dependable voting bloc that will guarantee 
continued power as long as entitlements are provided.''
    Dr. Carson has suggested that all assistance programs 
should be cut by 10 percent a year until the budget is 
balanced, without exceptions, without regard to whether the 
population served is vulnerable. Even social insurance 
programs--``social insurance'' meaning you pay in when you need 
it, lay-off, illness, retirement, or death--that social 
insurance programs like Social Security, Medicare, and 
Medicaid, which he believes are ``socialist leanings,'' even 
they should be subject to this 10-percent cut.
    Over 5 million Americans look to HUD for help. We are 
reaching only one of four eligible families. Many end up on 
years-long waiting lists simply because of lack of funding. 
They qualify. They are on the waiting list because there are 
not enough dollars available. A 10-percent cut, in addition to 
the shortages we now have, or the inadequacies we have, a 10-
percent cut would send hundreds of thousands of families into a 
tailspin. For some, literally, it might be a matter of life and 
death.
    I should note that Dr. Carson has made clear that he think 
criticisms of his views on Federal assistance are unwarranted, 
so today is an opportunity for him to shed more light on these 
seemingly contradictory views of Federal assistance. I 
appreciated our individual time we had earlier this week to 
begin to explore that, and we want to know more.
    Since 1968, HUD has been charged with ensuring that all 
people, regardless of race, regardless of ethnicity, or whether 
they have a disability, that all people have fair and equal 
access to housing and that its grantees affirmatively further--
that is the language, ``affirmatively further''--this policy.
    Here, too, Dr. Carson has been critical. In one of the few 
statements he has made on the subject of this hearing and the 
subject of his new jobs, and one of the few statements he has 
made on housing policy, he called into question more than four 
decades of civil rights law, he disparaged HUD's efforts to 
reduce segregation as ``social engineering schemes designed to 
legislate racial equality.''
    When Dr. Carson and I met a couple of days ago, we 
discussed the tragic effects of lead in my State and 
nationwide. Dr. Carson knows better than the rest of us, in a 
more scientific way, if you will, the terrible price that 
children and society pay for the legacy of lead in paint, 
industrial settings, and in water. I appreciate our 
conversation and look forward to hearing more about his views 
on HUD's role in removing lead hazards.
    Throughout his campaign, the President-elect promised to 
rebuild America's cities which he labeled ``hell holes.'' Mr. 
Trump spelled out his views in this document, his ``New Deal 
for Black America'', with a plan for urban renewal. The plan 
covers issues such as school choice, investing in law 
enforcement, trade, of course, tax reform, and infrastructure 
investment. But at a time when more than 11 million families 
pay more than half their income toward rent--think of that, 11 
million families spend more than half their income on rent--
half a million people have no place to call home. The 
President-elect, this plan, the President-elect's plan, has 
nothing about housing.
    Dr. Carson, I know you and the President-elect have talked 
at length about his urban renewal agenda. I am glad we had the 
chance today to learn more about that agenda, the role housing 
will play, and how you will help to deliver on his promises to 
create safer communities and better infrastructure, including, 
and especially in light of your charge, including our public 
housing stock.
    Welcome again to you, to Candy, to your family, and in 
front of the Committee. Thank you.
    Chairman Crapo. Thank you, Senator Brown.
    We are honored today to have Senator Marco Rubio from 
Florida to introduce Dr. Carson, and, Senator Rubio, the floor 
is yours.

  STATEMENT OF MARCO RUBIO, SENATOR FROM THE STATE OF FLORIDA

    Senator Rubio. Thank you, Mr. Chairman. Thank you to the 
Members. Thank you to Dr. Carson for his willingness to serve 
our country in this role.
    I am honored to be here to introduce my friend, and a 
fellow Floridian, Dr. Ben Carson, who is President-elect 
Trump's nominee to be the Secretary of HUD.
    I will begin by acknowledging that I did not have a chance 
to interact with Dr. Carson much until about 2015, when both he 
and I ran for higher office, and many of those interactions 
were on stage in front of millions of people, over 2\1/2\ 
hours, under hot lights, answering tough questions. I did have 
an interaction in the summer of 2015 in Iowa. He may not 
remember this, but I was feeling very sick that day, ran into 
him in the lobby of a hotel, and said, ``I am not feeling good 
today, Doc.'' And he said, ``Well, tell me what you are 
feeling.'' I described my symptoms, and Dr. Carson said, 
``Yeah, it sounds like you are sick.''
    [Laughter.]
    Senator Rubio. But all that aside, I have gotten to know 
him and his family through this process. You learn a lot about 
someone by watching him in a circumstance and in a situation 
such as that of running for President of the United States, but 
you also learn a lot because he is clearly an extraordinary and 
accomplished individual, someone who has been blessed with a 
gift--the gift of saving lives by performing surgeries that 
few, if any, in the world would have undertaken.
    Dr. Carson is supremely accomplished in his professional 
life, and even though his accomplishments in his professional 
life are extraordinary, I believe he is even a more 
extraordinary person. He is a man of limitless compassion and 
of concern for others, a man who has never forgotten where he 
started out in life and all the obstacles that he had to 
overcome to achieve the American dream, and a man who has 
devoted his life in public service. He has been a mentor, a 
generous giver of his time, a founder of a successful 
nonprofit, all designed to help remove the obstacles that he 
faced from other Americans.
    As Secretary of HUD, Dr. Carson will encounter a Department 
that is broken in many regards. It is a vast, sprawling 
bureaucracy that reaches all corners of our country. It is 
based here in Washington, but its most important work does not 
even take place here. It takes place out in the communities 
where they have housing facilities or provide assistance to 
people. I have seen with my own eyes the major challenges HUD 
faces and of its consequences on real people. Specifically, I 
have seen how lapses in competence and a lack of accountability 
in the HUD inspection process has endangered the lives of men, 
women, and children, and not just in Florida but all across 
this country.
    HUD needs a leader who knows how to overcome tough 
obstacles, someone who, when told ``you will never be able to 
do that,'' finds the way to do that, and does it well. Well, 
that is what Ben Carson has done his entire life.
    To those who may have questions about his qualifications, 
that is certainly the role of this Committee. But I would argue 
to you that the most important qualification that I would look 
for in a HUD Secretary is someone that understands that HUD is 
not just about providing people a place to live. At its core, 
HUD is about the American dream. HUD is about the belief that 
those who have been left behind and have suffered and have 
fallen down, we need to give them a chance to stand back up on 
their own two feet and achieve a better life. HUD in many ways 
is about empowering people to capture the promise of America. 
The one thing that makes us different than the rest of the 
world, where in this country, no matter who you are born to or 
how underprivileged you may be, starting out in life, we 
believe every human being is entitled by our creator to achieve 
their God-given potential.
    And I would just encourage this Committee to understand 
this: Dr. Carson believes this not because he read about it in 
a book or in a magazine, or because he watched some documentary 
on PBS. He believes it because he has lived it, and that cannot 
be easily replicated. He has the values, the compassion, and 
the character, and the kind of drive that we need. He is a 
proven leader, a doer in solving tough problems, and doing 
things that are hard and that people believe to be impossible. 
Throughout his life, people have put their hopes and literally 
their lives in his hands, and from everything I have seen from 
him firsthand and gotten to know about him, I am hopeful that 
this Nation will soon entrust him with the duty of serving as 
the Secretary of HUD.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you, Senator Rubio, and you are 
certainly welcome to stay, but I know you have got other 
responsibilities to attend to. We appreciate your taking your 
time to come and introduce Dr. Carson.
    Dr. Carson, before we turn the floor over to you, it is 
necessary that I place you under oath. Would you please stand 
and raise your right hand?
    Do you swear or affirm that the testimony that you are 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you God?
    Dr. Carson. I do.
    Chairman Crapo. Do you agree to appear and testify before 
any duly constituted committee of the Senate?
    Dr. Carson. I do.
    Chairman Crapo. You may sit down.
    Dr. Carson, your written statement will be made a part of 
the record in its entirety, and you may now make your oral 
statement, as you choose. Thank you.

STATEMENT OF DR. BENJAMIN CARSON, OF MICHIGAN, TO BE SECRETARY, 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Dr. Carson. Well, thank you so much, Mr. Chairman.
    Chairman Crapo. May I interrupt you before you get started? 
I should have said I encourage you to introduce your family. I 
think you were about to do that anyway, but you are certainly 
welcome to, please, introduce your family who have come to be 
with you.
    Dr. Carson. Yes. Well, thank you so much, Mr. Chairman, 
Senator Brown. Thank you to Senator Rubio for that kind 
introduction. Thank you to the Members of the Committee, 
virtually all of whom I have met with, who have been very 
gracious, and I very much appreciate that. Thanks also to 
President-elect Trump for his friendship, leadership, and for 
his trust for such an important role.
    I would like to introduce my family. Directly behind me is 
my wife, Candy, of 41 years, my college sweetheart, and 
starting from this end, my oldest son, Murray, another Yalie, 
who is an engineer, and his wife, Lerone, who is a youth 
pastor. And my daughter-in-law, Merlynn, who is a physician and 
a businesswoman, and my granddaughter, Tesora, who is just a 
sweetie; and my middle son, Ben Junior, or BJ, as we 
affectionately call him, a very successful entrepreneur 
businessman. And our good friend, Marcia Jackson, wife of 
former Secretary Alphonso Jackson. And I think you probably 
know the others here, but Rhoeyce is--oh, there he is, OK. My 
youngest son, Rhoeyce, and his father-in-law, Alexander Shabo. 
Thank you.
    Chairman Crapo. Thank you very much, and we welcome you all 
to the Committee today.
    Dr. Carson, you may proceed.
    Dr. Carson. You know, as a youngster, I remember actually 
feeling that I was pretty lucky. We lived in a 750-square-foot 
GI home in southwest Detroit that actually had a lawn and a 
little one-car garage, and we thought that was paradise. And 
then my parents got divorced, and, you know, my mother 
discovered that my father was married to someone else. And she 
did not have any skills. Basically, a third-grade education. We 
had no place to live. She could not afford the house, so we 
ended up moving to Boston, moving in with relatives. So I have 
actually in my life understood what housing insecurity was.
    We were there in Boston for a couple of years, and I 
remember as a 9-year-old looking through a building across the 
street, out of which all the windows had been broken, and a 
sunbeam was shining through it, and it made me think about my 
future. I remember thinking that I probably would never live to 
be 25, because that is what I saw around me, but my mother had 
very different ideas. She worked extraordinarily hard as a 
domestic, leaving the house at 5 in the morning, getting back 
at midnight, day after day after day, and her strong desire was 
not to be dependent on anybody else. And people were always 
criticizing her, and they said, ``You have two boys. You can be 
on Aid to Dependent Children.'' And she said, ``No, I cannot.''
    And she worked very hard. She would sometimes take us to 
the homes that she cleaned, and many of them were fabulous 
homes, and she would say, ``Would you rather live in this 
wonderful place or would you rather live where we live?'' And 
she would say, ``You know, the person who has this most to do 
with determining where you live is you. It is not somebody 
else. It is not the environment.''
    You know, that made a very strong impression on me, and she 
insisted later on, when we were able to return to Detroit, 
still not to our idyllic home--we still could not afford to 
live there, still in a multifamily, dilapidated place with rats 
and roaches--but, nevertheless, she was independent, and we 
still had that dream of being able to get back there.
    But I was a terrible student, and she insisted that I read. 
She insisted that my brother read. We were not very 
enthusiastic about that, but back in those days you had to do 
what your parents told you. And as I started reading, I began 
to discover a whole new world. We were desperately poor, but 
between the covers of those books I could go anywhere. I could 
be anybody. I could do anything. And within the space of a year 
and a half, I went from the bottom of the class to the top of 
the class, much to the consternation of all those students who 
used to call me ``dummy.'' They were now coming to me, saying, 
``Bennie, Bennie, how do you work this problem?'' And I would 
say, ``Sit at my feet, youngster, while I instruct you.''
    [Laughter.]
    Dr. Carson. I was perhaps a little obnoxious, but it sure 
felt good to say that to those turkeys.
    But, you know, I had a very different impression of who I 
was at that point, and, you know, it is one of the reasons that 
Candy and I started the Carson Scholars Fund, a component of 
which are reading rooms. And we put in reading rooms all over 
the country. We have 165 of them now, primarily in Title I 
schools, where kids come from homes with no books. They go to a 
school with no library or poorly funded library. They are not 
likely to become readers. As you know, 70 to 80 percent of high 
school dropouts are functionally illiterate, and if we can 
truncate that downstream, you can change the trajectory of 
their lives. And that is really what it is about--changing 
lives and providing opportunities for people. It makes all the 
difference in the world.
    You know, we had a program at Hopkins, and I would have 700 
to 800 students at a time come in on a regular basis. If you 
came to Johns Hopkins, some of you probably had me. You saw all 
the school buses around. That was bringing in the kids and 
trying to encourage them in terms of what they could do. And I 
got involved in a lot of the programs, involved more with the 
East Baltimore Community Development Inc., and with the 
community school, and with all the schools and the mayors.
    And, you know, that was a very important part of my life, 
even though I was an extraordinarily busy surgeon. And I do 
believe that Government can play a very important role. I know 
some have distorted what I have said about Government, but I 
believe Government is important, and it is there, I believe, to 
promote life, liberty, and the pursuit of happiness.
    What has happened too often is that people who seemingly 
mean well have promoted things that do not encourage the 
development of innate talent in people, and, hence, we have 
generation after generation of people living in dependent 
situations. It is not that they are bad people. It is that this 
is what they have been given. This is all they know, in many 
cases.
    I think we have an opportunity here to do something about 
that if we take a more holistic approach. When we talk about 
HUD traditionally, most people think putting roofs over the 
heads of poor people. But it has the ability to be so much more 
than that, particularly if we take a holistic approach. And we 
think about how do we develop our fellow human beings. I see 
each individual as human capital that can be developed to 
become part of the engine that drives our Nation or, if not 
developed, becomes part of the load. And we are the ones who 
are tasked with helping to make the difference.
    So I do believe that Government is extraordinarily 
important, and one of the things that I want to do, instead of 
just listening to the sage people of Washington, DC--and there 
are some wise people here--I want to go on a listening tour. I 
want to hear from the people with boots on the ground, who are 
actually administering programs, who are benefiting from the 
programs. I want to see what actually works and what does not 
work. I want to analyze why it works and why it does not work.
    Before I go on the road to do that, I want to do that at 
HUD. We have people there who have been there for 10, 20, 30, 
even 40 years, and I do not think a lot of people listen to 
what they have to say. I suspect that they have garnered a 
tremendous amount of information, and I want to get that 
information from them. I want to work with them on a regular 
basis.
    Some people say, ``But medicine--why would you go into 
something like HUD?'' Well, I actually believe that there is a 
tremendous nexus, a great intersection, because good health has 
a lot to do with a good environment, and after working so hard 
on so many people and then putting them back into an 
environment with lead and with all kinds of inducements for 
asthma and other chronic diseases, that is not very helpful. 
And I am looking forward to the Safe and Healthy Homes Program 
at HUD and enhancing that program very significantly.
    Why is all this so important? Well, you know, there was a 
Brookings study, a very important study, which showed that if 
people did three things, their likelihood of living in poverty 
would be 2 percent or less, and that is really what we want to 
do, keep people from living in poverty. Those three things were 
graduate from high school, get a job, and wait until you are 
married to have children. Think about that. And, you know, what 
that means is that there are points of intervention, things 
that we can do to make a difference in people's lives.
    Also, think about this fact. In terms of our human capital 
that is being wasted, we have 5 percent of the world's 
population and 25 percent of the prison inmates. That means 
there is something wrong. We have high recidivism rates. We 
have people who go into prison with little education and little 
in the way of skills, and they come out with little education 
and little in the way of skills. So what are they going to do? 
They go back to doing what they were doing before; hence, we 
have these high recidivism rates. We need to think about how do 
we give them education, how do we give them skills, how do we 
cultivate the innate talent that is in those individuals so 
that they become part of the engine once again.
    And recognize, we only have 330 million people. Now, that 
sounds like a lot of people, but that is a quarter of the 
people they have in India or China. We are going to have to 
compete with those Nations into the future, which means we have 
to develop all of our talent.
    Now, you say, ``Well, that all sounds great and wonderful, 
but you were a pediatric neurosurgeon. How could you have 
anything wonderful to say about any of these things?'' Well, 
you know, I have to chuckle when I hear people say things like 
that because there is an assumption that you can only do one 
thing and that we have these very limited brains and they are 
incapable of learning anything else. I find that kind of 
humorous, particularly knowing what the human brain is capable 
of. Billions of neurons, hundreds of billions of 
interconnections can process more than 2 million bits of 
information in 1 second. Any brain can do that. You cannot 
overload it. You hear some people say you overload your brain. 
You cannot do it. If you learned one new fact every second, it 
would take you more than 3 million years to challenge the 
capacity of your brain. So we do have the ability to learn.
    More importantly, we have the ability to work together, and 
that is absolutely critical. We in America--Democrats, 
Republicans, Independents--we are not each other's enemies. We 
must come to that understanding. There are real people out 
there who really want to destroy us, but we do not need to be 
doing that ourselves. We need to be combining our collective 
intellect, and one of the things that I learned in my private 
life as a board member at Kellogg for 18 years and Costco for 
16 years is how to select a good CEO. And I will tell you, a 
good CEO does not necessarily know everything about the 
business. He is not a marketing specialist. He may not be a 
financial specialist. There are many things that he does not 
know, but he knows how to pick those people and how to use 
them. And that is one of the marks of good leadership.
    So, in closing, I have been very fortunate to be able to 
move from the bottom rung of the socioeconomic level to the top 
rung and to understand how people feel in all those different 
levels, and I got to tell you, we are all in the same boat, and 
if part of the boat sinks, the rest of it is going down, too. 
And it means what we need to do is exercise true compassion. 
True compassion is not keeping people in a situation where we 
can feel good about what we are doing. True compassion is 
putting them in the situation where they can feel good about 
where they are going.
    Thank you.
    Chairman Crapo. Thank you very much, Dr. Carson.
    We will now go to 5-minute increments for Members of the 
Committee to question and discuss issues with you, and I 
encourage both you and the Members to keep an eye on the clock. 
If we start running over a little, you will hear me tap the 
gavel to remind you that it is time to wrap up so that we can 
all have a fair opportunity for our participation. I will begin 
first, and then we will turn to Senator Brown.
    Dr. Carson, as I mentioned in my opening statement, we have 
received a letter of support from Bart Harvey, who is the 
former chair and CEO of Enterprise Community Partners. Mr. 
Harvey praised the charitable work that you have done to help 
send disadvantaged students to college. He wrote, ``Although we 
come from opposites of the political spectrum, Ben and I share 
a common belief in helping people move up and out of poverty. 
He has done that through his outreach to the community and his 
philanthropy, and I have done it through my work with 
Enterprise.'' He further wrote, ``I can vouch for his 
character, his heart, and his drive to help others. Given HUD's 
role in the fight against poverty and for increased 
opportunity, I believe he can bring these issues to the 
national attention that they deserve.''
    Dr. Carson, how will your experiences working with the 
surrounding community at Johns Hopkins and through the Carson 
Scholars Help Fund help you run the Department of Housing and 
Urban Development?
    Dr. Carson. Well, having had an opportunity to interact 
with a lot of people in Baltimore, particularly in East 
Baltimore, which many of you know is not necessarily a very 
affluent area--and that is putting it mildly--and understanding 
a lot of their housing needs--because many of my patients came 
out of that environment, an environment where I saw children 
with pica, with lead poisoning chronically, and what that did 
to them intellectually, what that did to them medically. I saw 
so many children with asthma, which is induced in most of those 
cases by environmental influences, and recognizing that if we 
can give those people hope, then they can move out of that 
situation. But giving them hope starts with giving them a safe 
and a productive environment.
    And understanding that and understanding how you create 
those environments is something that I think is going to make a 
very big difference, and that is one of the reasons that I have 
already looked at some of the places in Baltimore and talked to 
the housing commissioner here in Washington, DC, and talked to 
a commissioner in Atlanta earlier this week, and I have talked 
to multiple mayors. And they have given me their take, but they 
have also invited me to come and look at the places where they 
are, both the good and the bad. Those are things that I intend 
to do not only early on but continually throughout the process 
because I believe there is a constant learning process, and my 
goal is to get everybody into a decent position, 100 percent of 
Americans.
    Chairman Crapo. Thank you. And, Dr. Carson, I know that you 
have heard some criticism of your alleged positions with regard 
to public assistance to the poor. You have heard some today. I 
would like to ask you if you would in your words like to 
discuss with us what your view is of how we should approach 
public assistance to the poor.
    Dr. Carson. I believe that we in America are compassionate. 
We have a history of being compassionate to people, and we 
obviously do not have to do something, but that would not be 
American. That would not be who we are.
    Of course, I feel very strongly that we should do 
everything we can, not only because we are compassionate, but 
also because we are smart, because we recognize that for every 
one of our people that we do not develop, it is someone whose 
talent is not contributing to the moving forward of this 
Nation. And if we are going to be successful in the future, as 
I mentioned before, we have to develop all of our talent. So 
for people to imply that I do not understand that or do not 
want to do anything for poor people, I believe that they 
perhaps are only looking at words that have been skewed and not 
at actions.
    Chairman Crapo. Thank you. We just have about 30 seconds 
left, so I will ask you very quickly. You have been nominated 
to run the Department of Housing and Urban Development. I think 
everyone on the Committee is familiar with your impressive life 
story. In your opening statement, you mentioned that you wanted 
to help run HUD to help heal America's divisiveness. Can you 
just elaborate on that very briefly?
    Dr. Carson. Yes. One of the things that has alarmed me is 
the fact that, you know, we are divided on the basis of income, 
race, gender, religion, age, just about everything, and we 
continue to allow the purveyors of division to drive those 
wedges between us. I believe that HUD is particularly well 
positioned to bring some healing in this area by truly 
manifesting fairness toward people, by truly getting people 
involved with each other.
    I want to work to bring mentorship programs. We have a lot 
of very successful people who can mentor young people who are 
in more desperate situations and show them a different way. We 
have public-private partnerships, which are win-win situations. 
Those are the kinds of things that are extraordinarily helpful. 
There are some who will always say to the Government, ``Give us 
more money. Give us more money. We need more money for this 
program and that program.'' Yes, it would be wonderful if there 
was an unlimited pot of money, but the place where there is a 
lot of money is in the private sector. And what we have to 
concentrate on is helping the private sector to recognize that, 
in the long run, private sector does better when we develop all 
of our people.
    Chairman Crapo. Thank you very much.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman. I would like to 
begin by asking unanimous consent to enter in the record 
letters that I have received, and our staffs can work together 
to make sure we are not duplicating that, if you would.
    Chairman Crapo. Without objection.
    Senator Brown. Thank you.
    And I also wanted to announce--and I neglected in my 
opening statement--that Senators Reed from Rhode Island and 
Warner from Virginia both have responsibilities as ranking 
members on Armed Services and Intelligence to do hearings, to 
do confirmation hearings today, and could not join us but 
wanted to be here. So I wanted to say that.
    Chairman Crapo. Thank you.
    Senator Brown. Thank you for your statements. I appreciate 
many of the ideas and goals you expressed. Some, however, as 
you, I think, know by now, are inconsistent with statements you 
have made over the past few years. If confirmed, I think you 
understand you will be held to the ideas you have expressed 
today, not ones necessarily you may have written or talked 
about in a Presidential race.
    You testified that you want to make communities more 
inclusive. This seems at odds with one of the only housing 
policies that prior to this nomination that you have taken a 
public stand on fair housing. As I mentioned, your 2015 column 
in the Washington Times critiqued HUD's then new rule to 
affirmatively further fair housing. You characterized that rule 
as a Government-engineered attempt to legislate racial 
equality. You likened it to a failed socialist experiment. 
Please elaborate for this Committee on your view of HUD's role 
implementing the Fair Housing Act, especially including the 
requirement that HUD's grantees affirmatively further fair 
housing.
    Dr. Carson. Well, thank you, Senator Brown, for that 
question and an opportunity to actually explain that because it 
has been distorted by many people.
    As you probably know, that act says that we want people who 
are receiving HUD grants to look around and see if they find 
anything that looks like discrimination, and then we want them 
to come up with a solution on how to solve the problem. They 
are not responding to people saying that there is a problem. 
They are saying go and look for a problem and then give us a 
solution. And what I believe to be the case is that we have 
people sitting around desks in
    Washington, DC, deciding on how things should be done, you 
know, telling mayors and commissioners and people, ``You need 
to build this place right here, and you need to put these kind 
of people in it.''
    What I would encourage--I do not have any problem 
whatsoever with affirmative action or at least, you know, 
integration. I have no problem with that at all. But I do have 
a problem with people on high dictating it when they do not 
know anything about what is going on in the area. We have local 
HUD officials, and we have people who can assess what the 
problems are in their area and working with local officials can 
come up with much better solutions than a one-size-fits-all, 
cookie-cutter program from people in Washington, DC. That is 
the part that I----
    Senator Brown. Your objection--so sorry, Dr. Carson. We 
have 5 minutes. Your objection is not to affirmatively further. 
Your objection is whether that is done from Washington or the 
HUD office in Columbus, Ohio?
    Dr. Carson. My objection is central dictation to people's 
lives.
    Senator Brown. Let me explore further along those same 
lines. I want to hear your views on the housing rights of 
lesbian, gay, bisexual, transgender, and queer people. These 
people also face discrimination, as you know, in alarmingly 
high rates of youth homelessness and bullying. Your statement 
mentions your desire to improve the lives of all families and 
communities ``no matter their race, creed, color, or 
orientation,'' yet you have in the past raised questions about 
whether LGBTQ people should enjoy the same rights as everyone 
else. Do you believe that HUD has a duty to take actions that 
promote equal access to housing opportunities for LGBTQ people?
    Dr. Carson. If confirmed in this position, of course, I 
would enforce all the laws of the land, and I believe that all 
Americans, regardless of any of the things that you mentioned, 
should be protected by the law.
    What I have mentioned in the past is the fact that no one 
gets extra rights. Extra rights means you get to redefine 
everything for everybody else. That to me does not seem to be 
very democratic.
    Senator Brown. That is what we are talking about, but I am 
glad to hear you say that, moving forward, you will respect 
that.
    Dr. Carson. Absolutely.
    Senator Brown. Last question, Mr. Chair, as time runs 
short. We have seen a dramatic increase in affordable housing 
needs in this country, as you have pointed out, Dr. Carson, in 
recent years. Eleven million families, as I said earlier, a 
quarter of all renters, pay more than half their income for 
housing, struggling to make ends meet. One thing goes wrong--a 
temporary layoff, hours cut back, illness--they lose their 
home. We talked in my office about the Matthew Desmond book 
``Evicted,'' which I hope you will read and I know some of your 
staff has already----
    Dr. Carson. Yes.
    Senator Brown. ----about people's lives being turned upside 
down when they are evicted. Their children's school district 
changes. They lose their possessions. They never quite catch up 
again. Their credit--all of those things that happen when half 
of their income goes to housing.
    I am surprised the President-elect's urban agenda does not 
even mention housing, as we talked about. You had told me about 
your conversations with the President-elect about an urban 
agenda. Have you had discussions with him about your plans for 
housing or his plans for housing? Tell us what those plans--
tell us what plans have come from those discussions.
    Dr. Carson. Yes. Yes, we have talked. In fact, we talked 
this morning.
    You have to attack the problem that you described from both 
ends. There are a large number of people spending 30 to 50 
percent of their income on housing, and that is an unacceptable 
number. So what we have to do is either raise their income or 
decrease the cost of the housing. I think both of those areas 
are areas that we need to work upon.
    Senator Brown. Do you support raising the minimum wage, and 
do you support the overtime rule, which in my State alone or in 
your home State of Michigan meant more than $100,000 in each 
State, people got raises that are making $30,000 and $40,000 a 
year? If we are talking about raising income, particularly the 
overtime rule would mean real dollars in people's pockets that 
are working 50 and 60 hours a week. Do you support those?
    Dr. Carson. I support creating an environment that 
encourages entrepreneurial risk taking and capital investment, 
which are the engines that drove America from no place to the 
pinnacle of the world in record time.
    Senator Brown. So I guess that means you do not support the 
overtime rule or the minimum wage?
    Dr. Carson. It means exactly that my philosophy is that we 
can increase people's minimum wages by increasing opportunities 
for them and creating an environment where those opportunities 
exist rather than artificially trying to change it.
    Senator Brown. I do not think--and last point, I do not 
think it is artificial that someone that works 50 or 60 hours a 
week and has been classified as management can work those hours 
over 40 making $35,000 a year and not get paid for those hours. 
I do not think that is artificial when the employer has denied 
them that straight time or especially time and a half.
    Dr. Carson. I agree it is not artificial, but you create 
the right environment, that employer will have to pay them more 
because the competition will require it of him.
    Chairman Crapo. All right. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Dr. Carson, I want to first, again, thank you for accepting 
this nomination----
    Dr. Carson. Thank you.
    Senator Shelby. ----and I want to do--a lot of us want to 
do everything we can to expedite this nomination. I am going to 
do a little of it this morning by not using all of my 5 
minutes, but we appreciate you, and we appreciate what you are 
and what you stand for and what you have done and what you 
could do in the housing area.
    Dr. Carson. Thank you.
    Senator Shelby. I think you are very wise to go on a 
listening tour. You can learn things, because all the wisdom is 
not here at HUD, but there is some there----
    Dr. Carson. Yes.
    Senator Shelby. ----because you referenced that earlier. 
There is experience there. But housing goes to the very essence 
of a family, family and opportunities and a neighborhood and 
then a town or a city and a Nation, as you know. We have got to 
do--there are a lot of broken things. I do not know all the 
answers. I have been on this Committee--this is my 31st year, 
and I have seen a lot of HUD Secretaries come and go. You can 
make a difference, and I believe you are taking that job to 
make a difference.
    Dr. Carson. Thank you.
    Senator Shelby. In the interest of time--and, of course, 
you are not there yet; I know that--I have six questions. I am 
not going to read them all to you, but I would like to get them 
answered not before you are confirmed, but after you settle 
down.
    Dr. Carson. Absolutely.
    Senator Shelby. One question deals with FHA mortgage 
insurance premiums. Another deals with distressed asset 
stabilization programs. These are just topics. One deals with 
down payments, FHA. The other one is HUD spending, considering 
the national debt. The other is HUD and DOJ enforcement, 
dealing with fraud, everything that deals with that. You will 
have a big one. Risk sharing, dealing--there is a difference 
between the way the VA Affairs loan program works and FHA, 
which comes under you, works and so forth.
    But I would like to submit, Mr. Chairman, these questions 
for the record to be answered by the future HUD Secretary but 
not today. In the interest of time, I yield back my time in the 
interest of getting you confirmed.
    Dr. Carson. Thank you. All very important issues, by the 
way, and I would be very happy to answer those.
    Senator Shelby. Thank you.
    Chairman Crapo. Thank you, Senator Shelby. I appreciate the 
precedent that you have just set.
    [Laughter.]
    Chairman Crapo. Senator Menendez.
    Senator Menendez. I appreciate and love Senator Shelby, but 
I am not going to follow his precedent, so----
    [Laughter.]
    Senator Menendez. Let me say, Dr. Carson, congratulations 
on your nomination.
    Dr. Carson. Thank you.
    Senator Menendez. And Tesora, is it, your granddaughter?
    Dr. Carson. Tesora, yes.
    Senator Menendez. She has got the right idea. She has her 
pink earphones on, so it is not an option that you have in the 
hearing, but nonetheless.
    Let me say in preparing for this hearing and reviewing your 
background, I learned that we grew up in similar circumstances. 
We both were raised in neighborhoods with fewer opportunities, 
whether it be Detroit, Boston, or Union City, New Jersey. I 
grew up in a tenement, and we both had parents who worked twice 
as hard and made half as much as those in more privileged 
communities. We both had devoted mothers who were willing to 
sacrifice everything and anything to give us a chance to 
succeed, and you did succeed with many notable accomplishments 
in your field of pediatric neurosurgery.
    But you are nominated to lead an agency in a completely 
different field, and our job is to assess your fitness to lead 
HUD. And in reviewing your past comments and knowing where we 
came from to get here today, I cannot help but see that you and 
I have arrived here with vastly diverging views about how to 
empower and create opportunities for the most vulnerable among 
us. So I have some serious questions--and I appreciate the 
visit that you had with me in my office--about whether your 
world view fits the core mission of the Department of Housing 
and Urban Development.
    You stated, ``Poverty is really more of a choice than 
anything else.'' During the CBS Republican Presidential debate 
in February of 2016, you suggested that, ``Getting rid of all 
regulations is the key to getting rid of poverty.''
    You characterize--and I know you just talked about a little 
bit of the legal obligations to include and create fair and 
inclusive communities free of discrimination as social 
engineering, and I want to follow up on that with you a bit. 
You propose that every Federal agency should trim their budgets 
with 10-percent across-the-board cuts year over year. I think 
of that more as a meat ax, not a neurosurgeon's knife. And I am 
concerned that it appears that you believe that some of the 
very programs that I have come to know as a mayor, as a State 
legislator, as a Member of Congress, to empower, promote, and 
improve our communities, encourage what you call 
``dependency.''
    So given that record of your views about poverty and 
housing, I would like to get a sense from you. Do you truly 
believe in the mission of HUD? For instance, should the 
Government continue to provide rental assistance to the more 
than 4.5 million low-income households across this country who 
are currently receiving it and who use that to find a place to 
call home?
    Dr. Carson. Thank you, Senator, for that question. First of 
all, if you have followed carefully what I have been saying, 
the concept of cutting across all the different departments was 
presented as a concept--in other words, not favoring one group 
or another group. I have modified that much later on to 1 
percent, but the point being we can never seem to cut because 
people have their programs, and they say this one is sacred and 
this one is not. So the point being if we can find a number on 
which we can agree and begin to cut back, we can start thinking 
about fiscal responsibility.
    Bear in mind, we are approaching a $20 trillion national 
debt.
    Senator Menendez. I appreciate that. My specific question 
is: Do you agree that the Government should continue to provide 
rental assistance to the more than 4.5 million low-income 
households across this country?
    Dr. Carson. I think the rental assistance program is 
essential, and what I have said, if you have been reading my 
writings, is that when it comes to entitlement programs, it is 
cruel and unusual punishment to withdraw those programs before 
you provide an alternative route.
    Senator Menendez. Now, let me ask you. In response to 
Senator Brown, you talked about fair housing, and you said you 
had no problem with affirmative action or integration. But 
there actually is under the law an affirmative obligation to 
affirmatively further housing, fair housing, and you have said 
what you did not care for is the top-down response. But yet the 
new rule that was developed through a 2-year public comment 
process requires ``local communities to assess their own 
patterns of racial and income segregation and make genuine 
plans to address them.'' That is not a top-down. So are you 
committed to the statutory obligation of affirmatively pursuing 
furthering fair housing?
    Dr. Carson. Well, this has been a judgment passed down by 
the Supreme Court. It has become the law of the land, and, of 
course, if confirmed, I will enforce it.
    Senator Menendez. Thank you, Mr. Chairman.
    Chairman Crapo. Senator Toomey.
    Senator Toomey. Thank you, Mr. Chairman.
    Dr. Carson, welcome to the Committee.
    Dr. Carson. Thank you.
    Senator Toomey. Thank you very much for your willingness to 
serve. I am grateful to you for the service you have provided 
to our country in various ways----
    Dr. Carson. Thank you.
    Senator Toomey. ----and for the service you are about to 
undertake. I appreciate your coming by my office and the 
discussion we had yesterday.
    It strikes me as a misguided notion to measure the success 
of a Government agency like HUD by the number of people who 
live in HUD housing. A better measure in my mind would be how 
many people no longer need HUD housing, and I would like to 
explore that a little bit with you, especially this idea you 
talked about, about how you hope to work with other agencies 
and departments within the Government to help develop the 
innate capability of these people that I know you feel very 
strongly about. But, first, a couple of somewhat specific 
questions about FHA, if I could.
    In 2006, FHA insured 2.7 percent of mortgage originations. 
By 2015, FHA was insuring 17.1 percent of such originations. So 
the FHA's contingent liabilities now have absolutely 
ballooned----
    Dr. Carson. Yes.
    Senator Toomey. ----to the point where it was $245 billion 
in 2006, it is $1.2 trillion today. So, in other words, 
taxpayers are on the hook for $1.2 trillion worth of 
mortgages--that all the while there is a private industry that 
is in the business of insuring mortgages.
    Dr. Carson. Right.
    Senator Toomey. Do you share my concern that this massive 
explosive growth in the FHA's mortgage guarantee business has 
interfered with a viable private alternative that does not 
involve taxpayer risk at all?
    Dr. Carson. Thank you, Senator, and thank you for the 
enjoyable time we had at your office.
    First of all, it is a big number. I mean 8.5 million FHA 
loans and $1.25 trillion. So, of course, we have to be 
concerned when we are talking numbers of that magnitude.
    We also need to make sure that we balance that against the 
ability of homeowners to have some security in the loans that 
they make. Does it have to be, you know, one particular entity 
that does it? Absolutely not, but we do have to have a 
mechanism, a backstop, you might say, of some type. Otherwise, 
when someone comes in and buys up the loans, securitizes them, 
we are probably not going to be able to sell them to 
particularly some of the entities that would buy them because 
they would not be comfortable.
    So I look forward to working with you and other Members of 
this Committee to figure out how we can shrink back the 
liability of a taxpayer while still providing the security for 
the individuals who want the loans.
    Senator Toomey. Well, I appreciate that, and I look forward 
to working with you on that. I do believe there is a very 
vibrant and capable private mortgage insurance industry that 
wishes to provide that service, is able to do so, and does so 
at no taxpayer risk.
    I would also just--I know you are aware of this, Dr. 
Carson, but it was just this week that Secretary Castro 
announced a 25-basis-point reduction in FHA's mortgage 
insurance premium. This was surprising to me for several 
reasons. One, the capital ratio that is the statutory 
requirement minimum is 2 percent. It is only at 2.32. This 
strikes me as very little buffer above the minimum, and after 
all, as recently as 2013, the FHA needed a bailout. So I 
wonder, first of all, did Secretary Castro or his folks reach 
out to you or to your knowledge anyone else in the Trump 
organization since you would be responsible, assuming you are 
confirmed, for implementing this change, which is about to go 
into effect?
    Dr. Carson. Well, I--no, they did not. I, too, was 
surprised to see something of this nature done on the way out 
the door, which, of course, has a profound effect. We are 
talking, you know, $2 to $3 billion this year, $5 billion next 
year. You know, that is not chump change. So, certainly, if 
confirmed, I am going to work with the FHA Administrator and 
other financial experts to really examine that policy.
    Senator Toomey. Thank you. I appreciate that.
    And, Mr. Chairman, if you will just indulge. My last 
question is just to refer back to my first point and ask Dr. 
Carson if he might share with us some of your thoughts about 
how you hope to work with other agencies, departments of the 
Federal Government, to help people achieve----
    Dr. Carson. Yes.
    Senator Toomey. ----what they are capable of achieving and 
the independence that comes with that.
    Dr. Carson. Thank you. I think that is a very important 
concept. As some of you may remember, when Jack Kemp was the 
Secretary of HUD, he started a governmental interagency program 
against homelessness, and it really was quite effective and 
very important.
    What I would be thinking about, if we are going to develop 
the whole person, is not just putting a roof over their head, 
but making sure that they have access to an excellent education 
and their children do. That means working with the Department 
of Education. It means working with the Department of Labor in 
terms of helping to train people, not just to be people who 
stand out on the corner and hold the sign and basic laborers, 
but apprenticeship programs, because there are a lot of shovel-
ready jobs, but not so many people to handle the shovels. You 
know, we need cement workers and welders and brick workers and 
a number of people, and those skills have been vanishing from 
our society. This is an excellent opportunity to bring them 
back. Not only does it give the person an immediate job, but it 
provides them with a mechanism to climb the ladders of 
opportunity in our society and gives them stability beyond what 
we and the Government would be facilitating, and that should be 
our goal. And several other areas, transportation is absolutely 
crucial. I think we even need to be working with the Justice 
Department because, you know, there are some inequities there 
that are keeping us from developing talent that can contribute 
to the strength of our Nation.
    Senator Toomey. Thank you very much, Dr. Carson.
    Thank you, Mr. Chairman.
    Chairman Crapo. Senator Warren.
    Senator Warren. Thank you, Mr. Chairman, and 
congratulations on your new role as Chair of this Committee.
    Chairman Crapo. Thank you.
    Senator Warren. I am looking forward to working with you as 
well as with six new Members of our Committee.
    And, Dr. Carson, thank you for being here.
    Dr. Carson. Thank you.
    Senator Warren. Before we get into some of the questions 
that I raised in my letter to you earlier this week, I just 
want to get an answer to, I think, a simple yes-or-no question. 
If you are confirmed to lead HUD, you will be responsible for 
issuing billions of dollars in grants and loans to help develop 
housing and provide a lot of housing-related services. Now, 
housing development is an area in which President-elect Trump 
and his family have significant business interests. Can you 
assure me that not a single taxpayer dollar that you give out 
will financially benefit the President-elect or his family?
    Dr. Carson. Well, Senator, I was worried that you would not 
get back. Thank you for coming back.
    [Laughter.]
    Senator Warren. I am back.
    [Laughter.]
    Dr. Carson. I can assure you that the things that I do are 
driven by a sense of morals and values, and, therefore, I will 
absolutely not play favorites for anyone.
    Senator Warren. Dr. Carson, let me stop right there. I am 
actually trying to ask a more pointed question, and it is not 
about your good faith. That is not my concern. My concern is 
whether or not, among the billions of dollars that you will be 
responsible for handing out in grants and loans, can you just 
assure us that not one dollar will go to benefit either the 
President-elect or his family?
    Dr. Carson. It will not be my intention to do anything----
    Senator Warren. I----
    Dr. Carson. ----to benefit any--any American, 
particularly----
    Senator Warren. I understand that.
    Dr. Carson. It is for all Americans, everything that we do.
    Senator Warren. But do I take that to mean that you may 
manage programs that will significantly benefit the President-
elect?
    Dr. Carson. You can take it to mean that I will manage 
things in a way that benefits the American people. That is 
going to be the goal.
    Senator Warren. To the best you understand that. You know--
--
    Dr. Carson. If there happens to be an extraordinarily good 
program that is working for millions of people and it turns out 
that someone that you are targeting is going to gain, you know, 
$10 from it, am I going to say, ``No. The rest of you Americans 
cannot have it''? I think logic and common sense probably would 
be the best way.
    Senator Warren. Yeah, although we do have a problem here, 
and I appreciate your good faith in this, and I do, Dr. Carson. 
The problem is that you cannot assure us that HUD money not of 
$10 varieties but of multimillion-dollar varieties will not end 
up in the President-elect's pockets, and the reason you cannot 
assure us of that is because the President-elect is hiding his 
family's business interests from you, from me, from the rest of 
America. And this just highlights the absurdity and the danger 
of the President-elect's refusal to put his assets in a true 
blind trust. He knows--he, the President-elect, knows--what 
will benefit him and his family financially, but the public 
does not, which means he can divert taxpayer money into his own 
pockets without anyone knowing about it. The only way that the 
American people can know that the President is working in their 
best interest and not in his own is if he divests and puts his 
assets in a true blind trust. Transferring his holdings to his 
children does nothing, as the head of the nonpartisan Ethics 
Committee said just last night.
    Since the President-elect refuses to address this 
voluntarily, we need to pass the Presidential Conflicts of 
Interest Act that I introduced with more than 20 of my 
colleagues, which would require him to do so.
    So, with the time I have left, I just want to follow up 
very quickly on a letter that I sent to you earlier this week 
and that we talked about in my office.
    Dr. Carson. And I appreciated that.
    Senator Warren. Good. And I appreciated it, too. As you 
know, more than 7 million children rely on HUD for housing--7 
million people. Many of them are children, veterans, people 
with disabilities. For many of these people, HUD is the 
difference between a stable home and life out on the streets. 
But one major problem that we talked about is lead exposure. 
And according to the most recent HUD study, 62,000 public 
housing units, nearly 6 percent of our total public housing 
stock, are in need of lead abatement.
    You are a highly accomplished doctor. We spoke at length 
about the implications of lead and lead poisoning on our 
children. Can I just ask you to commit today that you will make 
sure that HUD resources are dedicated to dramatically reducing 
the number of public housing units where lead is a problem?
    Dr. Carson. I can assure you that I will very much be 
working with you on that. Three-hundred-and-ten-thousand cases 
right now, children, each of which costs us enormous amounts of 
money. I do not think people even calculate that into that when 
we are talking about it. So, yes, I will be very vigorous in 
that area.
    Senator Warren. I very much appreciate it. This is a 
particular problem for us in the Northeast. It is a particular 
problem in Boston, where our housing stock is old.
    Dr. Carson. Right.
    Senator Warren. And it is absolutely critical that we get 
the lead out of these housing units and that our children have 
a chance to grow up without being injured by our own 
negligence.
    I look forward to working with you.
    Dr. Carson. Thank you for your leadership in that area.
    Senator Warren. Thank you. Thank you, Dr. Carson.
    Chairman Crapo. Senator Heller.
    Senator Heller. Mr. Chairman, thank you, and 
congratulations on the new chairmanship.
    Chairman Crapo. Thank you.
    Senator Heller. I look forward to working with you.
    Dr. Carson, it is good to see you----
    Dr. Carson. You, too.
    Senator Heller. ----and I welcome you.
    Dr. Carson. Thank you.
    Senator Heller. And congratulations on your nominee and for 
your family.
    Dr. Carson. Thank you.
    Senator Heller. I think that is wonderful. I still fondly 
remember Ben Jr. out in Carson City, Nevada, at a parade that 
we had. Then he came over to a chili feed. I do not know how 
much chili he ate, but his presence was appreciated, so thank 
you very much for taking that time.
    I want to reiterate something that I said in our 
conversation in my office, and that is, if you are the 
designated survivor, would you call my office and let me know?
    [Laughter.]
    Dr. Carson. Absolutely.
    Senator Heller. I have got a couple of questions for you, 
and I think it is just--actually, I have got a lot of questions 
for you, but a couple of basic questions that I think every HUD 
Secretary should be asked. Question number one is: Do you 
believe that everybody should own a home?
    Dr. Carson. I believe that everybody should have an 
opportunity to own a home.
    Senator Heller. Do you believe that we should preserve and 
protect the 30-year home loan mortgage?
    Dr. Carson. I believe the 30-year home loan mortgage has 
enabled millions of Americans to achieve the American dream. I 
think there are probably a number of ways to preserve that 
dream.
    Senator Heller. Do you support a Federal Government 
backstop like Fannie or Freddie or any other entity similar to 
that of the U.S. housing financial markets?
    Dr. Carson. I do support some type of backstop, but I also 
am very much in favor of introducing more private entities into 
the market.
    Senator Heller. You will be willing to work with this 
Committee on what alternatives those may be?
    Dr. Carson. I would very much look forward to doing that.
    Senator Heller. Dr. Carson, I appreciate that answer.
    Let me go to another topic, and that is the fact that we 
have over 300,000 veterans in the State of Nevada, in Las Vegas 
and Reno. Veteran homelessness remains a very serious problem, 
but things have gotten a little better, and thanks to the 
private sector and people getting involved and helping, but it 
still remains an issue.
    We have 200 veterans in Reno that have qualified for 
vouchers to help pay for rent. There are still about 50 
vouchers available. My question is: How will you continue to 
help the homeless veteran, and how will HUD better coordinate 
the efforts with the VA, nonprofits, and community 
organizations to help these veterans that are in need?
    Dr. Carson. Well, you know, people who go out and risk life 
and limb for us are people that should never want for any basic 
thing. We should be willing to do it. You know, the VASH 
program, Veterans Affairs Supportive Housing program, has been 
very successful in reducing homelessness, but we still have a 
lot more to go. And I think this is another area where we must 
take a holistic viewpoint, and what I have advocated is that 
when a person joins the military, they be associated with a 
support group at that time. That support group follows them 
through their entire military career, particularly when they 
are in combat and after they are discharged. That way, you 
discover early on what problems are incurred and are able to 
intervene at that point, which is considerably cheaper than 
waiting until we see the results of post-traumatic stress 
disorder.
    Senator Heller. Thank you, Dr. Carson.
    A statistic that is unfortunate in the State of Nevada is 
that 17 percent of Las Vegas area homeowners with mortgages are 
underwater. What would you and HUD do to help Nevada homeowners 
that owe more on their mortgage than what their home is worth?
    Dr. Carson. Well, as you know, we do have some programs 
targeted at such individuals if they qualify. But one of the 
things that I believe is essential is that we begin to--you 
know, like the RESPA program, giving people appropriate 
information before they actually get into mortgage trouble.
    I believe that one of the things that we could do at HUD is 
have a teaching mechanism, and it can be done on several 
different levels--at a very elementary level, at a moderate, 
and a more sophisticated level--so that people do not wind up 
in those situations. But the ones who are there already, I 
think there is a possibility of working with members of the 
private sector, and I think it is an area that we have 
neglected quite substantially. There are faith groups and there 
are business groups who are very magnanimous and willing to 
help, and I am going to be working hard on developing those 
opportunities for them, because in many cases, the reason they 
have not gotten involved is because there is a lack of trust. 
And if we can create that trust, there is an enormous amount of 
goodwill. I do not think we have to continue to come to the 
Government for everything.
    Senator Heller. Dr. Carson, my time has run out, but thank 
you very much for your time.
    Dr. Carson. Thank you.
    Senator Heller. And, BJ, I look forward to seeing you at 
the next chili feed. Thank you, and congratulations.
    Dr. Carson. Thank you.
    Chairman Crapo. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman, and 
congratulations on your chairmanship. I look forward to working 
with you.
    Dr. Carson, congratulations on being here today.
    Dr. Carson. Thank you.
    Senator Donnelly. To your son, I would like to welcome you 
to a chili event in Indiana anytime.
    [Laughter.]
    Senator Donnelly. We may have a little different recipe 
than Nevada, but I am sure you will enjoy it.
    Dr. Carson, I talked to you in my office about East 
Chicago.
    Dr. Carson. Yes.
    Senator Donnelly. Hard by the Chicago border, and we have a 
situation where a housing complex was built on top of an old 
lead company.
    Dr. Carson. Yes.
    Senator Donnelly. More than 300 families' lives have been 
upended and put at risk due to the presence of significant 
levels of lead and arsenic in the soil. HUD is a big part of 
the relocation effort, and you will be coming in, in the middle 
of this.
    Dr. Carson. Yes.
    Senator Donnelly. In effect, it is going to be handed off 
to you, and roughly half the residents are still onsite. Half 
the residents we have been able to move. We are pursuing 
emergency HUD funding for the safety and security and 
ultimately the demolition of the complex. Can I have your 
commitment that HUD will continue to be part of the leadership 
of this effort and to dedicate the resources necessary to get 
this right for the residents and for the local officials of our 
town?
    Dr. Carson. Absolutely. Whenever we are in a Superfund 
situation and lives are in danger and our children are in 
danger of being poisoned, I believe that becomes an emergency, 
and we will push very hard to complete that process.
    Senator Donnelly. We are really going to need you as a 
teammate on this, and all of the children there appreciate it, 
and the families do as well.
    I wanted to ask you--when I was in the House, I served on 
the Veterans' Affairs Committee. I serve on the Armed Services 
Committee now. One of the biggest housing challenges we face is 
for our veterans, who many are homeless. One of my cities, 
Kokomo, build a 29-unit complex for homeless veterans, and the 
question among some was: Would there be enough to fill this? 
Because Kokomo is not the biggest town. It is an awesome town 
but not the biggest town. And on day one, what we found out was 
29 was not enough.
    Dr. Carson. Right.
    Senator Donnelly. And it is that way across the country. 
And every night, there are veterans who are putting their heads 
down on concrete somewhere, and whether it is their economic 
situations or PTSD or some other challenge that they have, I 
would really like HUD to be part of the solution to this. The 
VA is deeply involved in this.
    Dr. Carson. Yes.
    Senator Donnelly. But with HUD, the first ``H'' is Housing, 
and we owe it to our men and women who have served this country 
to make sure they have a decent bed to sleep in at night. And 
if you would make sure that you have people dedicated to this 
proposition, it would go a long way toward meeting the 
commitments we have made and the promises we have made.
    Dr. Carson. Well, I am very proud of the VASH program. I 
believe that it needs more enhancement, and what you are saying 
reflects very well my sentiments.
    Senator Donnelly. Thank you.
    Another challenge, you know, we have not only in Indiana 
but across this country is the opioid drug epidemic. I 
discussed with you the town of Austin, Indiana, where we wound 
up in a city of 4,200 where 197 contracted HIV, and they have 
been fighting back. And I am very proud of the people of that 
town. You will have the opportunity to assist individuals 
suffering from chronic illness through housing and combating 
homelessness. As we look at this, could you tell me a little 
bit--you know, you have a tremendous medical background as 
well--your understanding of the connection between housing and 
health outcomes and trying to leverage the agency to combat 
opioid abuse and some of these situations we see?
    Dr. Carson. Well, the nexus is great between health care 
and housing, and it is not just the contamination with lead and 
other agents, and it is not just the mold and things that cause 
chronic asthma, which is a huge medical cost for us across the 
country each year. But it is also the safety issue, the 
psychological well-being.
    I was talking to a student in Baltimore who was sitting in 
her living room studying, and a bullet came through the window. 
It becomes very, very difficult to concentrate under those 
circumstances, and so, you know, we need to be looking at 
safety as a component of that as well.
    So, again, some of the programs that we have--the Choice 
program, for instance, that tries to come in and ameliorate the 
environment, I think those are actually very, very important 
programs for the health of the individual.
    Senator Donnelly. Thank you, Doctor. My time is up. The 
last thing I will say is the Hardest Hit program has been very 
helpful to not only my State but many others, so please keep 
that in mind.
    Dr. Carson. Absolutely.
    Senator Donnelly. Thank you, Doctor.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you. Senator Scott.
    Senator Scott. Thank you, Mr. Chairman, and congratulations 
to you on your new chairmanship.
    Chairman Crapo. Thank you.
    Senator Scott. We all wish you much success. I would also 
ask for unanimous consent to add to the record from the South 
Carolina African American Chamber of Commerce a letter of 
support on behalf of Dr. Carson.
    Chairman Crapo. Without objection.
    Senator Scott. Thank you very much.
    Dr. Carson, and to your family, thank you all for being 
willing to serve. No question, if you are confirmed, your 
entire family will feel the impact of your service to this 
country. There is no doubt that if there is a person in this 
country that has really no reason to offer yourself to public 
service after all that you have already done, it would be you. 
You have done a fabulous job and have been a great example for 
many of us in many ways. Like Senator Menendez suggested, his 
background as well as my background and yours are very similar.
    I reached a type of conclusion that you have, however, that 
there is so much potential inside the human heart and the human 
head and brain that we ought to look for ways to expose that 
potential----
    Dr. Carson. Exactly.
    Senator Scott. ----and allow for people to experience their 
full potential. That is such an important part of the equation, 
and I believe like you believe, I think, that the greatest 
thing that we can do for folks is help them find the path to 
their own independence.
    Dr. Carson. Exactly.
    Senator Scott. It is not to suggest that Government does 
not have a role. It is, however, to suggest that Government 
does not have the role in someone's life, and I think that your 
life demonstrates that as well as your answers to so many of 
the questions. I think it is been very important.
    I also want to thank you for your desire to do a listening 
tour. We have had many issues around housing for many decades, 
frankly. When I was on the county level, as the chairman of a 
county council in South Carolina, we had housing concerns and 
issues, and listening to the very people who live in the 
housing is such an important part of the formula that we should 
produce that will benefit the American people and specifically 
the American people within public housing----
    Dr. Carson. Exactly.
    Senator Scott. ----so that willingness is important. I wish 
that the outgoing Administration had the same objective of 
listening, even to Senators would be kind of interesting. So I 
would encourage you to listen to the Senators and folks who 
appoint you to the position at HUD. Whether that is Democrats 
or Republicans, it is very important to remain responsive, and 
I will use one case in point. There was a housing tragedy in 
Florida where Marco Rubio and Senator Nelson spent an enormous 
amount of time uncovering the challenges and the lack of 
inspections in HUD housing. We invited HUD to participate in 
one of the hearings. No one showed up. A $47 billion agency, 
thousands of employees here in Washington, DC, and we could not 
find anyone to listen, listen to the elected officials who had 
serious concerns about the living conditions of people in 
public housing. Not a single employee could find their way into 
the United States Chambers. I cannot imagine how that made them 
feel about their Government, about their opportunities for 
success, about their opportunities to find the next rung on the 
ladder. I expect that under your leadership the experience will 
be very different.
    Dr. Carson. Incredibly different than that.
    Senator Scott. One of the things I found refreshing about 
your approach is, indeed, the notion of a fresh start in 
housing. As someone who holistically understands and 
appreciates the necessity of affordable, clean, stable housing 
as a part of that journey to the American dream, I would love 
to hear your thoughts on how you incorporate the holistic 
approach to the new opportunity that, if presented to you, you 
will do a fantastic job with.
    Dr. Carson. Well, thank you, Senator Scott, and also for 
the wonderful example that you are for millions of people.
    The reason that I concentrate so much on the holistic 
approach is because when I look back historically at an agency 
like HUD--and there have been a lot of good programs, one 
program after another, and they have been targeted at specific 
problems, and it is good. But the progress perhaps has not been 
as great as one would like to see. And one of the things that I 
discovered as a neurosurgeon is you are much more effective 
when you bring in a bigger-picture view of things. Do not just 
look at, you know, the tumor that somebody has in their brain, 
but, you know, look at the whole person, and how can you bring 
health to this entire individual, and how can you then put them 
into an environment where they can thrive. And that is the same 
principle that I am looking at here.
    The programs that have been enacted in HUD over the years, 
you know, they are good programs, but in and of themselves, 
they are not bringing about the elevation of large numbers of 
people, and that is what we are really looking for. We do not 
want it to be a way of life. We want it to be a Band-Aid and a 
springboard to move forward. So that is why I place so much 
emphasis on education, and that is why I place so much emphasis 
on health care. You know, I am not just talking about lead 
abatement, but I am talking about perhaps putting clinics into 
neighborhoods so that people do not rely on the emergency room 
where it costs five times more and where you do not get the 
kind of follow-up that would prevent you from having Stage V 
renal disease. That is what I am talking about by a holistic 
approach. It saves us so much money if we begin to think that 
way.
    Senator Scott. Fresh start. Thank you very much.
    Dr. Carson. Thank you.
    Chairman Crapo. Thank you. Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman. Thank you for 
having me on the Committee, Ranking Member Brown as well.
    Dr. Carson, thank you for our visit earlier this week.
    Dr. Carson. It was wonderful. Thank you.
    Senator Schatz. It was a pleasure to get to know you. There 
has been a lot of talk about your political philosophy in the 
context of your previous years of a political campaign running 
for President, your personal views about poverty. I appreciate 
all that, and I appreciate that you seem to understand that you 
are possibly entering into a new role, and that is, it is 
different. And I can see the evolution even during this 
hearing.
    But let me just talk about where the rubber hits the road 
when it comes to leading an agency, and that is in advocacy for 
the budget. In the end, in the Presidential budget process, in 
the appropriations process at this authorizing level, I need to 
know that you are going to advocate for the HUD budget, and for 
me, that is a threshold question that you are not going to--
there are other nominees who I think some of us feel are going 
to lead an agency in order to undermine its mission. I do not 
hear that from you, but I would like to hear the words that you 
would like to advocate for the HUD budget.
    Dr. Carson. OK. Not only do I want to advocate for the HUD 
budget, but, you know, in the process of doing a listening tour 
and talking to the people who are there already, I want to put 
together a world-class plan on housing in this country, and 
then I want to come to you with that world-class plan. And I 
want to convince you all that this is what we need to do. I do 
not know what that number is going to be, quite frankly. It 
might be more; it might be less. But it will be what is 
required to accomplish what we need to do.
    Senator Schatz. Thank you.
    Following up on a couple of questions around rental 
assistance, you and I talked about the kind of perception among 
most people--and it is actually left, right, and center--that, 
in some instances, public housing can feel like a trap, and 
certainly, Members of this Committee and you yourself have 
transcended very difficult circumstances, and it was not 
Government that helped you to do that. I understand all that. 
But there is abundant evidence now that, specifically, when you 
think about assisting people in transcending their 
circumstances, when you need that hand-up rather than a 
handout, that it does start with housing. And that even though 
we have great difficulties in our public housing authorities, 
even though the Section 8 program is imperfect, there is now 
HUD data that demonstrates that families that get rental 
assistance do better than families that do not. And I am not 
talking about doing better during that period of time. I am 
talking about in terms of moving up the economic ladder, that 
actually, if you square away someone's housing situation, that 
is the best way to situate them so they can deal with their 
health, their education, and whatever family problems they may 
need to contend with.
    Dr. Carson. Yes.
    Senator Schatz. I would like your thoughts in that area.
    Dr. Carson. Well, my thought is that, as I mentioned 
before, the things that we have been doing and the programs, 
they are lifesaving. They are a safety net. Do I think we can 
do better? Absolutely. And do I think we should be spending a 
little more time and effort concentrating on developing the 
potential of our people? And the answer to that is yes, 
particularly in light of the fact that we have so many fewer 
people than some of our competitors, and it is going to be 
absolutely essential that we do that.
    Senator Schatz. One final question. I used to run a social 
service agency in Honolulu, and one of the things that we came 
to understand before the vernacular was established was that 
especially somebody who has a co-occurring substance abuse 
problem or who is contending with mental health challenges or 
has employment issues, that they have no fighting chance to 
contend with any of those issues unless you deal with their 
housing.
    For many not-for-profit organizations that provide services 
or even provide housing, in some instances it is actually a 
prerequisite to get sober, to get clean, to have all your 
behaviors squared away in order to receive the housing 
assistance.
    Dr. Carson. Right.
    Senator Schatz. HUD and others have figured out that as 
attractive as that may be for the service provider and as sort 
of neat as that logic appears to be, the truth is it just does 
not work, and that is why Salt Lake City and many other States 
have adopted--and eventually, HUD adopted this idea of Housing 
First.
    Dr. Carson. Right.
    Senator Schatz. I would like your thoughts on Housing 
First, and I would like your assurance that you are certainly 
going to look at everything with new eyes, but that you 
appreciate the basic premise, which is that unless you put a 
roof over somebody's head, they are not going to be able to 
move up that economic ladder.
    Dr. Carson. Well, you know, the Housing First program is 
certainly one of the ones that I want to study and look at the 
data. You know, I know of one individual who was chronically 
homeless and having a very difficult time with substance abuse 
who through that program not only became employed, but was able 
to purchase their own home. So, you know, there are some 
tremendous success stories there, and again, these are our 
political capital. So those are programs that we will study 
carefully, see what we can derive from those and how we can 
take those lessons and multiply them across the Nation.
    Senator Schatz. Thank you.
    Chairman Crapo. Thank you, Senator Schatz.
    Senator Rounds is next, but without objection, I am going 
to allow Senator Corker, because he has got some multiple 
conflicts here, to take a few moments.
    Senator Corker. Very briefly.
    Dr. Carson. Thank you.
    Senator Corker. I want to thank you for coming by the 
office. I look forward to working with you----
    Dr. Carson. Thank you.
    Senator Corker. ----as you ascend to this very important 
position. I would not be in the U.S. Senate had it not been for 
efforts as a young businessman leading a nonprofit to help 
people have decent, fit, and affordable housing. This is an 
outstanding Committee; we have outstanding leadership. You are 
going to enjoy working with everyone here, and I look forward 
to helping you in any way I can. Thank you.
    Dr. Carson. Thank you.
    Senator Corker. Thank you.
    Chairman Crapo. Thank you, Senator. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    You know, we only get 5 minutes in which we are supposed to 
supposedly interrogate you, and I can tell you that after our 
first meeting, I shared with a number of people how much I 
enjoyed just the discussion, your interest and your desire to 
actually be actively involved. And I got to thinking back that 
I think there was some concern that you are not a housing 
expert, and that you do not have a background in construction 
and so forth. And I got to thinking that it seems to me that 
probably running this department is not really brain surgery, 
and that if you can handle that, you most certainly have the 
capabilities to step in and to look at this with fresh eyes.
    Dr. Carson. Thank you.
    Senator Rounds. One of the items that we talked about was 
Native American housing in South Dakota and in rural areas. I 
would just like--I am not sure that you even had a chance to 
look at any of the materials that we had shared with you, but 
there was a real strong concern on the part of Native Americans 
in the rural areas that the current formula in which funds are 
being distributed by HUD was not following that which had been 
recommended by some senior staff and, in fact, was following an 
old guideline.
    Dr. Carson. Yes.
    Senator Rounds. I am not going to ask you to make 
commitments, but would you please look at and just agree that 
you will give it fair consideration that we find a fairer way 
to make sure that these folks that literally have homes that it 
is all they got.
    Dr. Carson. Yes.
    Senator Rounds. And, in some cases, that might be a $5,000-
valued home. That there be a way that we get these folks the 
resources they need so they get a chance at housing as well.
    Dr. Carson. Well, thank you for advocating for them. I 
mean, this is a situation that has weighed heavily on my mind 
as I have learned more and more about it. You know, we have a 
$650 million budget plus $66 million, but the Native American, 
you know, Homeless--Housing Assistance Self-Determination Act 
has been sort of waiting to be re-upped for 6 years. So, you 
know, I am looking forward to the Senate going ahead and 
reauthorizing that act in the very near future, and the amount 
of red tape on the reservations, as you know, is astonishing.
    I mean, on tribal lands, if you want to build a house, you 
have to get permission from HUD, permission from the Interior. 
If you want to put a driveway on it, you have to get permission 
from the Department of Transportation. I mean, this is 
craziness. So we need to bring back a little bit of common 
sense and have the people associated with those tribes involved 
in that decision making.
    Senator Rounds. Do you believe that there is a possibility 
that we could coordinate efforts on VA housing as well on 
reservations? This is a case where last year, I found out that 
literally the Minneapolis region had led the Nation in the 
number of VA loans authorized in the entire Nation, and they 
had authorized five. This is a system which is broken.
    Dr. Carson. It is totally broken.
    Senator Rounds. And yet VA has lots of different things 
they do. This is not part of HUD. Nonetheless, it seems to me 
there should be a coordinated effort to provide literally 
getting the results for people that live in poverty today, 
veterans who we should not be--they should not be looking for a 
handout. What we should be doing is providing them with a 
service, which they are entitled to. I would hope that perhaps 
with a fresh look there could be some coordinated efforts to 
provide that service.
    Dr. Carson. Well, thank you, sir. I think veterans can be a 
healing balm for all of us because we can all agree on that.
    Senator Rounds. Also, in South Dakota, we are a small 
State. We receive funds annually for the Community Development 
Block Grants, CDBGs. They are often used in low- and moderate-
income communities in order to invest in infrastructure 
developments that allow for less expensive housing to be 
developed. As a former Governor, I remember we looked forward 
to being able to utilize CDBGs. They were valuable. They really 
did extend the amount of money that we had available.
    Can you give me your assessment on CDBGs and a commitment 
that CDBGs are critical and if any way that they could be 
expanded? And in terms of dollars going into very good 
projects----
    Dr. Carson. Right.
    Senator Rounds. Just your basic thoughts on the CDBG 
program.
    Dr. Carson. Well, obviously, it is one of the major 
programs of the Community Planning and Development Division, 
very important, because it gives people a great deal of 
flexibility. I would be actually looking to increase the 
flexibility, but at the same time have a much better control of 
the finances.
    One of the reasons that the finances have not been 
carefully controlled and why the Inspector General has been 
critical, I think, lies with the fact that our IT is so far 
behind. Our computer systems are dated, and it is much easier 
for people to, you know, do things under the table. That is one 
of the things that I would be looking to fix right away.
    Senator Rounds. Very good. Thank you. I look forward to 
supporting your nomination, and thank you, Mr. Chairman.
    Chairman Crapo. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. Thank you for 
your welcoming remarks, you and the Ranking Member.
    Dr. Carson, it is great to see you, and as somebody who 
represents the State of Maryland, I want to thank you----
    Dr. Carson. Absolutely.
    Senator Van Hollen. ----for the good work you did as a 
neurosurgeon at Johns Hopkins and the good work you have done 
in East Baltimore.
    Dr. Carson. Thank you.
    Senator Van Hollen. And you certainly know the city of 
Baltimore, and when you and I met yesterday, I mentioned that 
after the Freddie Gray tragedy in Baltimore City, President 
Obama established a White House task force to help Baltimore 
City by trying to break down some of the silos among different 
Federal agencies. And I asked you then whether you would urge 
the incoming President to continue that White House task force. 
You indicated yes.
    Dr. Carson. Yes.
    Senator Van Hollen. I just want to make sure that we are on 
the same page.
    Dr. Carson. I am very much on that page of integrating the 
silos and taking holistic views of virtually everything. The 
synergy that we derive from that will be great.
    Senator Van Hollen. And continuing this White House task 
force, I hope we can work together to continue that going 
forward.
    Dr. Carson. The more we work, the better--together, the 
better.
    Senator Van Hollen. And Freddie Gray actually brings up the 
issue that there has been some discussion about of lead paint 
poisoning because there was significant evidence that he had 
been a victim of lead paint poisoning. So I am encouraged by 
your remarks.
    I would only say that there has been a lot of talk, and you 
made remarks about regulations hindering progress in certain 
ways. I can tell you in the State of Maryland we had a lot of 
absentee landlords who were fighting our efforts to put in 
place regulations to stop lead paint poisoning. So I assume 
that those kind of regulations are good regulations. Do you 
agree with that?
    Dr. Carson. Absolutely.
    Senator Van Hollen. All right.
    Dr. Carson. I am just a little weary of overregulating, as 
were the Founders of this country.
    Senator Van Hollen. And I think we all are. If there is a 
regulation that is not serving its purpose, we should be 
getting rid of it.
    Dr. Carson. Right.
    Senator Van Hollen. If there is a regulation that is needed 
to protect the public good----
    Dr. Carson. Absolutely.
    Senator Van Hollen. ----we should probably put it in place. 
And I do--my colleagues have asked you about some of your 
previous comments as they relate to this new job, and I just 
wanted to do the same thing on some----
    Dr. Carson. Sure.
    Senator Van Hollen. ----because there is this ongoing 
conversation about Federal Government programs not creating the 
opportunity but creating dependency. We all want to use these 
programs to create opportunity so people can lift themselves up 
and become self-sufficient. That is a shared goal. And during 
the campaign, you did make some disparaging comments about 
housing subsidies specifically, along with a litany of other 
things saying, you know, ``There are people who say I am 
compassionate, they pat people on their head and say, `There 
you are, poor little thing. I am going to take care of your 
needs.' '' And you mentioned housing subsidies as one of those.
    As I understand your testimony today, you see an important 
positive role for housing subsidies as part of an effort to 
help families get on their feet----
    Dr. Carson. Yes.
    Senator Van Hollen. ----as a safety net and move on. Is 
that right?
    Dr. Carson. That is correct.
    Senator Van Hollen. OK. I also agree with you--and we had 
this conversation in my office--about the fact--and you said it 
this morning--that just having a roof over your head does not 
necessarily solve someone's problems. You want to expand 
educational opportunities, and I could not agree with you more. 
Greater synergy there would be important.
    I do want to also note, though, that many of those housing 
subsidies go to families who do not have children. In fact, if 
you look at the rental assistance figures, more than 4.5 
million low-income households receive them, half of which are 
headed by seniors or persons with disabilities.
    Dr. Carson. Right.
    Senator Van Hollen. And for those individuals, the 
wraparound help the need to be self-sufficient relates many 
times to health care.
    Now, during the campaign, the incoming President tweeted, 
``Ben Carson wants to abolish Medicare. I want to save it and 
Social Security.'' That was October 25, 2015, 5:20 p.m. You 
have also--you have indicated you want to get rid of Medicaid, 
which is an important health safety net for so many people. So 
given your earlier comments about the importance of wraparound 
supports, the roof not being enough by itself, and the fact 
that so many millions of people who receive rental subsidies 
are seniors or people with disabilities, are you going to 
advocate within the Government abolishing Medicare and 
Medicaid?
    Dr. Carson. No. You have to go back and understand the 
context of replacing that with something else. Obviously, if 
you are not going to replace it, you are not going to get rid 
of major safety nets.
    Senator Van Hollen. Right. If I recall, you were going to 
replace both of those programs with health savings accounts. I 
just want to say, Dr. Carson, I am quoting the incoming 
President with respect to your position.
    Dr. Carson. Yeah, but he was incoming President who was 
running against me. Remember that.
    Senator Van Hollen. I understand. I just want the record to 
show, Doctor, that you said he distorted your position, not me. 
All right?
    [Laughter.]
    Senator Van Hollen. Thank you.
    Dr. Carson. OK.
    Chairman Crapo. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair, and thanks to you and 
the Ranking Member. I am looking forward to serving on this 
Committee.
    Dr. Carson, welcome to your sons, their beautiful families, 
and especially to your wife.
    Gosh, I do not know where to start, but I do want to thank 
you for the amount of time that you spent in my office. I 
thought it was interesting that at least one person spent close 
to 4 minutes and 30 seconds talking to you about the 
hypothetical of the incoming Administration potentially 
benefiting their business or the family members. That seems 
absurd to me, but do you know what I like most about the answer 
to your question? You would not get pinned down to a yes-or-no 
answer. You said what matters most is the benefit to the people 
that we are trying to serve. That, my friend, tells me that you 
are a very honest person. You could have been attacked for 
that. I do not know if it was just nuanced and the person who 
asked you that question did not understand what you said or if 
they just decided that was too--well, too principled an answer 
to take you on, so thank you for that answer.
    Dr. Carson. Thank you.
    Senator Tillis. And keep those principles in place.
    Now, as a practical matter, before the fake news cycles 
start, I doubt seriously that scenario will ever come up, and I 
am kind of tired of the hypotheticals. I want to get to the 
specific.
    Dr. Carson. Thank you.
    Senator Tillis. I was Speaker of the House in North 
Carolina, and I was criticized for the means but not the ends 
for a number of things that you are going to have to do, too. I 
will give you an example of a State-administered Government 
assistance program. It is called Unemployment Reform. I am the 
only Speaker of the House in the Nation that ratified a bill 
that did not extend long-term unemployment benefits. At the 
time, we were fourth highest unemployment in the Nation. Over 
five quarters, we dropped from 10.4 percent to 6.4 percent, to 
the national average, while all the other States that did not 
take that action remained the same place. What is the best 
possible thing we can do for somebody who is on Government 
assistance?
    Dr. Carson. Get them off of it.
    Senator Tillis. Get them a job.
    Dr. Carson. Absolutely.
    Senator Tillis. So what we are here to talk about is not 
the ends. I think we all agree we want people to have housing. 
We want every child that grows up to be able to realize the 
American dream. This has to do with the means, and in my 
opinion, the means over the past couple of decades have failed. 
It is been a bipartisan failure--more recently with Democratic 
leadership, but before that, Republican leadership.
    Now, when you go into Housing and Urban Development, can I 
get your commitment that you are going to look at every program 
and determine which ones are actually providing the benefit to 
that next Ben Carson who may come up with his mom and be a 
neurosurgeon and eliminate every single obstacle in the way?
    Dr. Carson. You can absolutely get my guarantee on that.
    Senator Tillis. Do you think there are any sacred cows in 
HUD that stand in the way of that outcome?
    Dr. Carson. I have been studying it carefully, and I have 
not seen one yet.
    Senator Tillis. Do you think that, to a certain extent, 
over the years we have gone from providing housing to providing 
warehousing for an unacceptable number of people who are 
supported through the Federal Government?
    Dr. Carson. Well, the key to your question there was the 
word ``unacceptable,'' and yes, absolutely.
    Senator Tillis. And do you believe that HUD and the other 
agencies have creeped their scope over time, and that you could 
be someone who may actually say that HUD needs to be smaller or 
some other organization needs to be smaller, so that the people 
best positioned to provide the safety net, the agency best 
positioned to provide the safety net can do it, and you can 
complement on some points and take the lead in others?
    Dr. Carson. I believe we need to be much more efficient, 
and that efficiency involves being able to work together and 
stop duplicating services, and that is why I am very interested 
in working across the silos.
    Senator Tillis. Do you believe that things that we can do 
to improve education outcomes to potentially--and in my case, 
hopefully--move forward with criminal justice reform, getting 
nonviolent offenders into rehabilitated settings and reducing 
recidivism will make your job easier?
    Dr. Carson. It would make all of our jobs easier. 
Absolutely.
    Senator Tillis. Do you believe that the role that social 
services outside of education that serve communities, at-risk 
communities--do you think that we should have all agencies 
create these duplicative operations? Or if I have got an at-
risk school system, do I think the Department of--do you think 
the Department of Education should grow to serve that need, or 
that we need to do a better job of using the various agencies 
whose primary goal is to serve that segment of the community?
    Dr. Carson. Definitely, we need to do a much better job.
    Senator Tillis. So will you commit to me if you identify 
anything that seems duplicative to any other agency that you 
will come before this Committee and say, ``We want to move it, 
have someone else on it, and have them be accountable for the 
results''?
    Dr. Carson. I am very much looking forward to working with 
this Committee to do that. Absolutely.
    Senator Tillis. I appreciate your forthrightness. I think 
you have done a great job in this Committee and a great job----
    Dr. Carson. Thank you.
    Senator Tillis. ----in your career. I look forward to 
supporting your nomination.
    Dr. Carson. Thank you, sir.
    Chairman Crapo. Thank you. Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Mr. Chair and Ranking 
Member. As a new Member of the Committee, I look forward to 
working with all of you and----
    Chairman Crapo. Welcome.
    Senator Cortez Masto. Thank you very much. And, Dr. Carson, 
welcome.
    Dr. Carson. Thank you.
    Senator Cortez Masto. And congratulations on your 
nomination, and welcome to your wonderful family sitting here 
with you.
    So there have been a lot of questions. With your 
indulgence, I am just going to get right to them because I know 
it is getting a long day for you, and morning, and just my 
colleagues have asked a number of questions, and I would like 
to just kind of reaffirm some of them.
    In your role as the leader of HUD, will you promise to 
protect the LGBTQ community from discrimination?
    Dr. Carson. Absolutely.
    Senator Cortez Masto. And as we know, there is a long and 
well-documented history of patterns and policies of segregation 
of minorities in our neighborhoods. Would you continue to 
aggressively enforce the FHA, which is dedicated to ensuring 
access to our country's housing is free of discrimination, 
including expeditiously and thoroughly investigating race and 
national origin complaints, ensuring fair mortgage lending for 
homeowners, and carrying out strategies to end homelessness?
    Dr. Carson. I think the Fair Housing Amendment in 1968 was 
one of the best pieces of legislation we have had. It was 
modified in 1988. LBJ said no one could possibly question this. 
I agree with him.
    Senator Cortez Masto. Good, so you would continue to 
enforce it aggressively?
    Dr. Carson. Absolutely.
    Senator Cortez Masto. Including the new HUD rule that 
requires local communities to assess their own patterns of 
racial and income segregation and make genuine plans to address 
them?
    Dr. Carson. I will be working with the local HUD officials 
and the communities to make sure that fairness is carried out.
    Senator Cortez Masto. OK. I appreciate you taking the time 
to come to my office and sit with me, and in that meeting, you 
made a number of statements, like you have this morning, on 
your vision for HUD and how the Department would or would not 
intervene in individuals' lives.
    Specifically, you said that we do not want, year after 
year, people vegetating in public housing, and these comments 
were a little concerning to me and for this reason: In Nevada, 
the fair market rent for a two-bedroom apartment is around $950 
per month. In order to afford this level of rent and utilities, 
a household has to earn $38,000 annually.
    In Nevada, a minimum wage worker earns an hourly wage of 
$7.25, or $8.25, if their insurance is not being paid for, 
which is about $15,000 annually. In order to just cover that 
two-bedroom rent apartment, that individual making minimum wage 
would have to work 88 hours per week which, as you can see, 
does not leave much time for not only funding for education or 
much other opportunities to further themselves, other than just 
putting a roof over their head----
    Dr. Carson. Right.
    Senator Cortez Masto. ----for them and their families. That 
does not sound like to me somebody who is vegetating in public 
housing.
    You also mentioned to one of my colleagues that you believe 
that additional housing funding, rental assistance, is 
essential, but when we talked, you said there were limits. Do 
you believe that low-income Americans should have a limit to 
public assistance? And can you further define that for me?
    Dr. Carson. Well, what I am saying is that we have to be 
cognizant of our fiscal responsibilities as well as our social 
responsibilities. Would we love to put every single person in a 
beautiful unit forever? Absolutely. That would be ideal, but we 
do not necessarily have the necessary funding.
    But the other thing that I emphasize is that safety net 
programs are important. I would never, you know, advocate 
abolishing them without having an alternative route for people 
to follow.
    Senator Cortez Masto. So how would you help somebody find 
that alternative if all they are doing is working and coming 
home and working and that is all they can afford? How would you 
help them, other than giving them a time limit in that public 
housing and then they have to leave?
    Dr. Carson. Well, there is a much bigger-picture issue 
here, and that is, fixing our economy and working very hard to 
create the right kind of atmosphere. When that happens, people 
have a lot more options in terms of their jobs, and people have 
to raise their salaries.
    Senator Cortez Masto. OK. And then Nevada was hardest hit. 
We were Ground Zero for the foreclosure crisis. As the Attorney 
General of the State, one of my biggest partners was your 
agency. Aggressively, we worked together to bring relief to 
homeowners there, including what you talked about, financial 
relief but also financial literacy and education.
    Dr. Carson. Right.
    Senator Cortez Masto. Through that, I created the Home 
Again program--and it still is in existence in the State of 
Nevada--to provide financial literacy and help to homeowners 
for the first-time home buyers, for individuals who want to get 
back into their homes. Is that a program that you see that you 
can continue to support and would look to help support in the 
State of Nevada?
    Dr. Carson. I will certainly study that program carefully 
and work with you to make sure that the goals of that program 
are carried forward.
    Senator Cortez Masto. Thank you. I appreciate your 
questions today--or excuse me--the answers to your questions 
today. Thank you very much.
    Dr. Carson. Thank you.
    Chairman Crapo. Thank you. Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Dr. Carson, when you were performing neurosurgery at Johns 
Hopkins Hospital, were you concerned primarily with how much 
the operation cost and how much money you were generating for 
the hospital? Or were you primarily concerned with fixing your 
patient's problem?
    Dr. Carson. Primarily concerned with fixing the problem, 
absolutely.
    Senator Kennedy. I want you to understand my agenda. I am 
not interested in taking away affordable housing from people in 
need. I am interested in seeing fewer people need affordable 
housing. How are you going to do that?
    Dr. Carson. Again, it goes back to the conversation we were 
just having. We have got to give people a springboard to get 
out of a situation of stagnation and develop their God-given 
talents. We have got to create an environment, which we can do, 
you know, through tax reform, through regulatory reform, 
through trade reform, through a number of things that creates 
an environment, and then we can also--you know, the people who, 
for instance, are stuck in those situations, there is 
absolutely no reason that we cannot require some training, some 
education, some skills, which then allow them to be much more 
independent and move up. So that is really what I am talking 
about, just not sort of leaving the system as it is and just 
continuing to feed the system, but really trying to develop our 
people.
    And it goes back to what I was talking about before. If we 
are going to compete in the future with nations that have three 
and four times as many people as we do, we have got to develop 
our people. We have got to get the bang for the buck.
    Senator Kennedy. I want to talk to you about the Community 
Development Block Grant program. As we talked about in my 
office, Louisiana had massive flooding last year. In March, the 
northern part of our State received about 25 inches of rain in 
3 days. That is more rain than the city of Los Angeles got in 3 
years. And then in August, South Louisiana flooded. We got 
about 27 inches of rain in 3 days. Most of the people who 
flooded did not live in a floodplain. They did not need 
health--or flood insurance. And the truth is if you get 27 
inches of rain or 25 inches in 3 days, you can live on Mount 
Everest and you are going to flood. So we had a lot of people 
hurt badly.
    The American taxpayer has been very generous through the 
Members of Congress. Congress has appropriated about $1.6 
billion to our people. It is going to come in the form of 
Community Development Block Grants.
    Dr. Carson. Right.
    Senator Kennedy. Now, there is some confusion. Our Governor 
has a plan to spend part of that money. He does not have a plan 
to spend the other part. He has blamed HUD. I have spoken off 
the record with some of the HUD officials. They say it is the 
State's problem. Frankly, I do not care whose fault it is. 
Congress has acted. The American taxpayer has been 
extraordinarily generous. I just want to figure out how to get 
that $1.6 billion to folks so they can start rebuilding their 
lives.
    Would you commit to me that, as Secretary of HUD--and I 
believe you will be Secretary of HUD--that you will ask your 
folks not to break any rules and not to break any laws, but to 
demonstrate some of that flexibility you were talking about?
    Dr. Carson. Yes.
    Senator Kennedy. To keep their eye on the ball. Let us try 
to get the money into the hands of the folks for whom it was 
appropriated as opposed to discussing how many lawyers can 
dance on the head of a pin.
    Dr. Carson. Well, thank you, Senator, and I enjoyed our 
conversation previously. You are singing my song here. You 
know, I have been talking to mayors across this country and 
housing authorities, and they all say what you just said. They 
appreciate the grant money, but they have to jump through too 
many hoops, and there is too much red tape. And I look forward 
to working not only with the people at HUD, but with the 
recipients of the grants, so we can figure out how to 
streamline this procedure. And by utilizing the IT technology 
to, you know, eliminate a lot of waste and fraud, I think we 
can--we can really get a lot of bang for our buck here.
    Senator Kennedy. OK. Thank you. Thank you, Doctor.
    Dr. Carson. Thank you, sir.
    Senator Kennedy. You will be a great HUD Secretary.
    Dr. Carson. Thank you.
    Chairman Crapo. Thank you very much. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman, and as others have 
said before, I look forward to your leadership on this 
Committee, and I appreciate you being in this position. You 
have been there before and done a fine job, and I have no doubt 
you will do a fine job moving into the future.
    Dr. Carson, thanks for putting yourself up for this, and as 
others have said, thank you to your family----
    Dr. Carson. Thank you.
    Senator Tester. ----for their support of you in this 
position.
    Others have talked about the similarities of how you have 
grown up with them. You have not grown up with the same 
similarities that I have. I have grown up in the West, and I 
can tell you that I would not be in the position I am in 
without the Homestead Act, without the measures that President 
Roosevelt took in the Dirty '30s. We would have been off the 
farm and gone from Montana. And even today--and I am not 
particularly proud of this, but even today, agriculture still 
gets significant subsidies to keep themselves going. So I think 
we both agree that Government plays an important role in 
whatever we do, and housing is no exception.
    I can also tell you that, from a regulatory standpoint, we 
do not enforce things like the Packers and Stockyard Act, and 
that is one of the reasons we still have ag subsidies. So there 
is room for regulation in this.
    I want to touch on one thing that was said, and it deals 
with this, and you have no control over this, but why the blind 
trust is so important is because we elect people to offices 
like U.S. Senators and President of United States not for 
personal gain but for the betterment of the country.
    Dr. Carson. Sure.
    Senator Tester. And I can tell you, you are not going to be 
able to tell what happens if that is not put into a true blind 
trust, just like Jay Rockefeller did when he wasin the U.S. 
Senate. We are not asking him to do anything different than 
what has been done before.
    One of the problems with coming late to a Committee hearing 
is everything has been said, but not everybody has said it, so 
I am going to say it. Affordable housing is--and, by the way, 
thanks for coming to my office. Affordable housing----
    Dr. Carson. I enjoyed it, particularly seeing that buffalo.
    Senator Tester. You are darn right.
    [Laughter.]
    Senator Tester. You come out; we will show you some that 
are walking around.
    The affordable housing is critically important, and I can 
give you plenty of examples--talk about a holistic view, which 
I agree with--plenty of examples where there is not affordable 
housing. There is not the economic opportunity. There is not 
the opportunity to create jobs. There is not an opportunity to 
move the economy forward.
    I was just in Havre, Montana, 8,000, 10,000 people, 
visiting with business leaders. They cannot get new businesses 
to come in because they do not have a workforce that can be 
housed. So we are not talking just about poor.
    Dr. Carson. Sure.
    Senator Tester. We are talking about everybody if we are 
going to increase the middle class. You are going to be a big 
part of that.
    Another thing is the 30-year note. Pretty special to the 
United States. I mean, it really is.
    Dr. Carson. Absolutely.
    Senator Tester. But it has allowed tons--millions of people 
to get into housing that would not otherwise be there.
    So my question to you is: Do you believe it is possible to 
have a 30-year mortgage without a Government guarantee?
    Dr. Carson. Yes, I think it is possible.
    Senator Tester. How are you going to do it?
    Dr. Carson. The private sector. We have to--but you cannot 
do it overnight. It has to be a gradual change, and that is 
something that I would want to work with this Committee on 
because I think we cannot do it in a haphazard way, and we 
cannot do it in an ideological way. We have to make sure that 
we preserve the dream for the American people. That is the key.
    Senator Tester. I would love to work with you on it. I 
think that if you take a look at how long 30 years is, 30 years 
is quite a while, and I think a lot can change in 30 years. And 
I think, truthfully, I do not see how it can happen. I know 
Canada does not have it, and I do not want to be like Canada.
    Dr. Carson. No. I mean, they are OK. They are good people.
    Senator Tester. Yeah, they are good people. They are. I can 
almost see Canada from my doorstep, so they are good people. 
But I can tell you----
    [Laughter.]
    Senator Tester. I can tell you that it is going to be 
difficult, but I am willing to listen to ideas and try to move 
forward.
    We talked about reducing red tape. There is an outfit 
called the Interagency Council on Homelessness, which works for 
ways to address homelessness in different geographies. One size 
does not fit all.
    Dr. Carson. Right.
    Senator Tester. Will you commit to working with those folks 
to make sure that that can happen?
    Dr. Carson. That is very important. You know, I have been 
that close to being homeless myself, so I can really understand 
that.
    Senator Tester. Super. Not a lot of folks have talked about 
Indian country. My friend Senator Heitkamp may when I get done, 
but housing is a huge problem, and it is one of the reasons 
that we hope you come to North Dakota and Montana when you do 
your listening session to look at some of the large land-based 
tribes and the challenges that they have.
    But one of the biggest sources for Federal funding in 
Indian housing is block grants, and do you have any ideas on 
how HUD can really focus on Indian country? Because you are 
right, there is a lot of regulation. But there is also just 
unbelievable--you have come from it; you have seen it--poverty.
    Dr. Carson. Yes.
    Senator Tester. If you want to talk about at-risk kids, 
they are all Native Americans----
    Dr. Carson. Right.
    Senator Tester. ----in the State of Montana for the most 
part. So do you have any ideas on how we can improve housing? 
Because it is a critically important piece of that holistic 
puzzle you talk about.
    Dr. Carson. Right. Well, again, going back to the holistic 
model, you know, it is not just a matter of putting people in 
houses. Understanding what is going on, on those tribal lands. 
Why is there such a drug problem, for instance? What is 
facilitating that? Can we start further down the road and see 
if there is a way that we can stop some of the drug trafficking 
and then at the same time, simultaneously, work on the housing?
    As I mentioned before, getting rid of the regulatory burden 
for creating housing on the reservations, I mean, it is 
absolutely absurd. And working, I think, with some of the 
tribal leaders themselves, rather than imposing things upon 
them, I think all of those things will have an ameliorating 
effect.
    Senator Tester. Thank you for your service, Dr. Carson.
    Dr. Carson. Thank you, sir.
    Chairman Crapo. Thank you. Senator Perdue.
    Senator Perdue. Dr. Carson, thank you for your lifetime of 
service and your willingness to serve again. Please do not take 
any disrespect from my absence here in the better part of this 
meeting.
    Dr. Carson. I understand.
    Senator Perdue. I have an Armed Service Committee going at 
the same time with General Mattis.
    It strikes me--I am incredibly impressed with the 
nominations of this President-elect, and you are not the least 
of those by any means. I have always admired your heart for 
humanity, and in our meeting earlier this week, I could see 
that.
    One of my first jobs, Doctor, was in the Head Start 
program, and I learned early when I put people around me to 
judge their hearts, and I think President-elect Trump did a 
great job in your nomination for this.
    Dr. Carson. Thank you.
    Senator Perdue. I have--I am amazed with your quotes here: 
``We do not need to help people achieve a position where we 
feel good about. Rather, we need to put people in a situation 
that they feel good about.'' Would you elaborate on that, 
please?
    Dr. Carson. Yeah. Well, you know, in many cases, you know, 
over the years, bureaucrats, politicians--no offense--have 
just, you know, done things that make themselves feel good and 
pat themselves on the back, and ``We took care of this 
problem,'' when, in fact, you go and you look at the people, 
and, you know, they are living in squalor, in dilapidated 
places, and there is danger. And you go outside, you are 
worried about whether your kid is going to come back safe. So, 
you know, we need to be looking at the end product rather than, 
you know, the beginning of the process. That is what I am 
talking about.
    Senator Perdue. You had mentioned public-private 
partnerships. In USAID--I served on the Foreign Relations 
Committee--one of the great successes is Power Africa, where we 
put $8 billion up of U.S. taxpayer money and we attracted over 
$40 billion of private money to power a significant portion of 
Africa over the next decade. Talk to us a little bit about your 
vision about how you can get the private sector involved with 
Government to help heal our cities and develop.
    You had mentioned the other thing to Housing and Urban 
Development. In our private conversation, you spent more time 
talking with me about development, and I would like you to 
elaborate on that as it relates to the private investment.
    Dr. Carson. Sure. Well, you know, we have got a lot of very 
talented people in this country in the private sector, and, you 
know, the low-income housing tax credit is an excellent 
example. It is seen over by the congressional Finance 
Committee. But, you know, that has allowed an enormous number 
of places to be renovated, and there is plenty more where that 
comes from.
    In Detroit, I was talking to a private developer recently 
about some of the work they were doing with blight, and it was 
costing $16,500 per building. They came in and, working with a 
recycling organization, were able to take the buildings down 
for $5,500. That was a way of using the private sector in a 
very positive way to clear large amounts of the city. Those are 
the kinds of things that we need to look for.
    There is a lot of money in the private sector. There is a 
lot of goodwill in the private sector, and I want to work on 
those programs, and I want to study those programs that are 
working so that we can multiply them across the country.
    Senator Perdue. Well, thank you again for your answers. Mr. 
Chairman, thank you. And God bless you for your willingness to 
do this. Thank you.
    Dr. Carson. Thank you.
    Chairman Crapo. Senator Heitkamp.
    Senator Heitkamp. Mr. Chairman, welcome to that chair. We 
look forward to working with you. You have a brave new crowd. 
Two little kids' chairs. I used to sit over in that one, so 
welcome to the new Members.
    Chairman Crapo. I sat in that one over there.
    [Laughter.]
    Senator Heitkamp. It is the little kid's chair. Sorry.
    Dr. Carson, you know, there are a lot of people who kind of 
scratched their head when you were nominated thinking, ``What 
does he know about housing? And how is he going to manage this 
agency?'' And I have thought a lot about that, and you and I 
have had a great conversation, and thanks for coming. But we 
are not in the housing business. We are really in the people 
business as we look at this agency.
    And I grew up completely different than you. I grew up in a 
town of 90 people. My dad basically was a seasonal construction 
worker. My mom was a school cook. And like you, I was blessed 
with parents who really believed in me. Unfortunately, in 
America, there are so many children who do not have our 
blessing, and those children have suffered traumatic events in 
their life. It has limited their ability to grow emotionally. 
It has limited their resiliency. It is created problems for 
them that they carry with them the rest of their life.
    And I thought about you as a neurosurgeon. I thought of you 
as a man who understands brain function, and I thought, you 
know, you just might be the right guy if you focus on why 
people are in poverty, not judging people who are in poverty--
--
    Dr. Carson. Right.
    Senator Heitkamp. ----but doing it in a way that we have 
not thought about before, that we have not even considered 
before. And so I would really challenge you to take your 
enthusiasm for change, which we all agree that we are an 
exceptional country that should provide opportunity, should 
provide that ability that you and I both have had----
    Dr. Carson. Yes.
    Senator Heitkamp. ----to come out of poverty, but we 
absolutely need to understand why people are in poverty----
    Dr. Carson. Yes.
    Senator Heitkamp. ----without judgment, and that is a 
critical piece for me. You and I have had a great chance to 
talk about----
    Dr. Carson. Yes.
    Senator Heitkamp. ----Native American issues. We had a 
great chance to talk about rural housing shortage, both of 
which Senator Tester raised.
    I want to just hit two issues. One is transitional housing, 
and the other one is runaway and homeless youth. And they are 
on the other end of the spectrum of what I am talking about in 
terms of early intervention, but they are critical services for 
what we hope to do as a country when we look at judicial 
reform, when we look at the opportunity to change.
    Dr. Carson. Yes.
    Senator Heitkamp. Transitional housing is something that I 
believe is essential to reentry for so many of the people whose 
human capital we are wasting every day, and I want a commitment 
from you that you will make transitional housing, as we look at 
judicial reform, a major priority in terms of housing and in 
terms of helping in that cycle.
    Dr. Carson. Well, I think it is very important. As you 
know, we have the HEARTH program, the Homeless Emergency----
    Senator Heitkamp. But I am not really talking about that. I 
am talking about long-term, you know, transition so that when 
people are taken out of situations, whether it is disability, 
whether it is a homeless vet, they are provided wraparound 
services in a location where they feel and are nurtured and 
have the ability to transition. So we think, OK, you get 30 
days and you are out. I mean, we have an opioid crisis in this 
country. We have a homeless crisis in this country. We have a 
trauma crisis in this country. It cannot be dealt with without 
dealing with transitioning people out of those situations.
    Dr. Carson. Sure. Well, you relayed a very poignant story 
during our conversation, which stuck with me, which I have used 
to others. It is obviously very important, and I very much look 
forward to working with you. It is an important issue.
    Senator Heitkamp. I want to talk about another issue that 
we deal with a lot, and that is human trafficking, youth 
trafficking, the abuse of children. A lot of people think--I 
like to say it is like when they talk about human trafficking 
or child sex trafficking, they sometimes kind of see this Laura 
Ingalls Wilder bounding through the prairie, and some dark 
cloud comes and swoops her up, and now she is in this horrible 
life. And I am not saying that does not happen, but I will tell 
you who these children are. These children have been thrown 
away, they have been given away, and they are abused every day. 
And if we do not get them off the street, if we do not do 
everything that we can to protect them at that point when they 
are leaving their family, they will be the most serious victims 
of crime in this country.
    And so we need to reauthorize the Homeless and Runaway 
Youth program. We need to do everything that we can to provide 
that environment, that shelter environment that prevents these 
children from becoming victims of the most heinous and horrific 
crime that is committed in this country.
    Dr. Carson. Senator, you do not have to convince me about--
--
    Senator Heitkamp. Yep.
    [Laughter.]
    Senator Heitkamp. You know, I got to get it in, though.
    [Laughter.]
    Senator Heitkamp. Lay down the marker. And so I look 
forward to working with you, and I really look forward to you 
examining the work that we have been doing on trauma and really 
seeing that as an entry-level opportunity for change in the 
early stages, especially in the programs that you run, because 
housing is foundational. It is foundational to family growth. 
It is foundational to raising healthy Americans.
    Dr. Carson. Thank you. This is going to be a great 
Committee to work with.
    Senator Heitkamp. We are a really great Committee. You are 
right.
    [Laughter.]
    Chairman Crapo. We are. That is stipulated.
    [Laughter.]
    Chairman Crapo. Senator Cotton.
    Senator Cotton. Thank you. Mr. Chairman, Senator Brown, Dr. 
Carson, I want to apologize for my delayed arrival. We have had 
the nominations for General Mattis in Armed Services Committee 
and Congressman Pompeo in the Intelligence Committee, just two 
other nominees like yourself that reflect very well on Donald 
Trump's Cabinet and his judgment in assembling that Cabinet. 
And I look forward to supporting both of them as well as your 
nomination, Dr. Carson.
    Dr. Carson. Thank you.
    Senator Cotton. We spoke in our private meeting about a 
topic you have already discussed with Senator Heller and 
Senator Donnelly that is close to my heart, and that is the 
problem of homeless veterans.
    Dr. Carson. Right.
    Senator Cotton. I think there are something like 40,000 
homeless veterans in America today. In Arkansas, we have 
several hundred of those veterans. I think it is an appalling 
failure of our Government and our society that we have veterans 
who are willing to risk their lives for our country, and they 
currently live in worse conditions than they did in the deserts 
of Iraq or the mountains of Afghanistan.
    I just wanted to give you an opportunity to lay in a little 
bit about how you think about this problem and what we can do 
better to solve this very disturbing problem of homelessness 
among our veteran population.
    Dr. Carson. Well, thank you, and thank you for your service 
in the military to our country.
    You know, back in World War II, one of the things that 
helped us to get where we needed to get in the civil rights 
movement was the service of black Americans in the military, 
and when people began to see how they were willing to sacrifice 
everything but would come home to our own country and be ill-
treated, it sparked something in the American psyche. And I am 
hopeful that at this stage of the game, the fact that we have 
homeless veterans and veterans who are not receiving 
appropriate medical care will have the same effect. It seems 
almost immoral that we could have a group of people who have 
sacrificed so much and then basically just kicked them in the 
pants. That certainly will not be the case with HUD.
    Senator Cotton. Well, thank you very much, and I look 
forward to working with you on this question, as I know so many 
Members of this Committee do and the Congress does, and I know 
that you will be working closely with Mr. Shulkin----
    Dr. Carson. Yes.
    Senator Cotton. ----in his confirmation as the Secretary of 
the VA. I just want to say thank you once again for your 
willingness to answer the call of service. I know sometimes 
leaving private life can be a challenge for individuals----
    Dr. Carson. Yes.
    Senator Cotton. ----but I am very glad that the President-
elect has selected you to be our Secretary of Housing and Urban 
Development, and I look forward to working together with you 
and seeing you from time to time in front of this Committee.
    Dr. Carson. Yes. Thank you, Senator.
    Senator Cotton. Thank you, Dr. Carson.
    Chairman Crapo. Thank you, Senator.
    We have one Senator who may show up for his first round of 
questions, but at this point, there are no Senators in the room 
who have not already had one round. I know there is some 
interest in a second round, and so could I get, just by a show 
of hands, who is interested in a second round? So we have two 
or three. At this point----
    Dr. Carson. Do I get to vote?
    [Laughter.]
    Chairman Crapo. Actually, we should ask you if you need a 
break. So you want to finish this.
    Let us go ahead and start the second round then, and I will 
probably at some point jump in with some questions, but I will 
go to you first, Senator Brown.
    Senator Brown. Sure. Thank you, Mr. Chairman. And thank you 
for sitting here and your patience. I noticed you were not 
drinking that much water so you do not have to get up like 
Senator Crapo, like the Chairman and I did.
    Dr. Carson. I am thinking about that.
    Senator Brown. I know exactly your age.
    Chairman Crapo. You let us know.
    Senator Brown. I know exactly your age.
    [Laughter.]
    Senator Brown. A little more specific on the issue that 
Senator Warren raised. Yesterday, the President-elect announced 
his intention to hang on to his investments, not put them into 
a blind trust. I appreciated, too, Senator Tester's very 
specific admonition about that. This creates particular 
problems for HUD since he has invested--we do not know his tax 
returns, so there may be others. We know he has invested in at 
least one subsidized housing project, Starrett City. I wondered 
if you are aware of his stake there and if you discussed 
Starrett City with the President-elect.
    Dr. Carson. I have not discussed it with him. I do know 
about it.
    Senator Brown. OK. I do not see how HUD can avoid the 
appearance of a conflict should any issue arise on this 
property, do you?
    Dr. Carson. Well, what I would hope would happen with this 
Committee is that we could come up with a suggestion that might 
be acceptable to all sides.
    Senator Brown. Let me start with one. Would you commit to 
report back to the Committee on any issue that should arise on 
a property, Starrett or otherwise--again, we do not necessarily 
know if there are others. Would you commit to report back on 
any issue that should arise on a property owned by Mr. Trump or 
his family in any contact you or any subordinates receive from 
the Trump organization or the White House or any other source, 
other than the normal back and forth between a project and its 
oversight officials? Would you commit to reporting to this 
Committee anytime that arises?
    Dr. Carson. I would be more than delighted to discuss those 
issues.
    Senator Brown. Well, will you then--thank you. Will you set 
up a process to identify those conflicts?
    Dr. Carson. I will work with you to set that up.
    Senator Brown. OK, good. Thank you for that commitment.
    One other question and response. Then I will not take my 
whole 5 minutes, Mr. Chairman. I appreciated your comments in 
your testimony about the interaction between housing and health 
care. When Matthew Desmond signed his book to me--and I bought 
it. I want you to know that. He wrote on his book ``Evicted'', 
``Home equals life,'' and that in a nutshell says what you are 
saying between the connection between housing, health care, and 
so much else.
    Dr. Carson. Right.
    Senator Brown. As I think Senator Van Hollen said, if you 
do not have a home, so many other things go wrong, obviously. 
So even if you are widely successful in promoting healthier 
housing, will it be any more than a drop in the bucket compared 
to the loss of health insurance for as many as 30 million 
Americans, including nearly a million in my State? Governor 
Kasich, a Republican, has admonished Republicans here, ``Do not 
repeal the Affordable Care Act unless you replace it 
immediately because what do I do with 700,000 people that have 
Medicaid now in Ohio.'' His words.
    So my question is--you responded to him that if you are 
going to--that you seem less than enthusiastic about the way 
Medicare and Medicaid operate, so you said you would be willing 
to eliminate them, but only if something replaced them 
immediately. So does that meant that you would oppose the 
elimination of the Affordable Care Act without something 
replacing it immediately?
    Dr. Carson. Yeah, I have said that many times. I do not 
think it is reasonable to pull the rug out from anybody. We 
always have to make sure that we are taking care of our 
citizens, regardless of our political persuasion.
    Senator Brown. So if you had been the Senator from Florida 
instead of Senator Rubio, the vote last night might have been 
different--oh, never mind. OK.
    [Laughter.]
    Senator Brown. Thank you, Dr. Carson.
    Chairman Crapo. Thank you. Although we had a Senator on----
    Senator Brown. One more point. I just wanted to thank you. 
I am sorry. I am sorry. I am sorry.
    Dr. Carson. You remind me of Columbo.
    [Laughter.]
    Senator Brown. I have actually heard that. It is all right. 
I have heard that before. I think I heard it from somebody in 
Youngstown.
    [Laughter.]
    Senator Brown. Just one point. I wanted to thank you for 
what you are saying about lead, repeated comments about lead, 
both in public housing and in the private rental market. That 
is so important, the discussion we had about the percentage of 
toxic--toxic lead in almost every single home built before 
about 19----
    Dr. Carson. 1978.
    Senator Brown. Yeah, but even the housing stock that is 
older, it is particularly bad----
    Dr. Carson. Exactly.
    Senator Brown. ----because the housing is decaying. And in 
the city I live in, it is probably 85 to 90 percent of the 
homes, so thank you.
    And I apologize, Mr. Chairman.
    Dr. Carson. OK.
    Chairman Crapo. All right. We did have a Senator on the 
Republican side who wanted to get here but is held up at the 
Armed Services Committee hearing that is going on right now, 
and Senator Warren, who was here, has been called back to the 
Armed Services Committee. She indicated that, if necessary, she 
could submit her further questions for the record.
    And so, at this point, we do not have any further 
questioning for you, Dr. Carson, and we will wrap up the 
hearing. I will say to all Senators and Dr. Carson, we have a 
practice of submitting questions following the hearing for the 
record.
    Senator Brown. She does have a----
    Chairman Crapo. Oh, did you have a question? OK. Senator 
Cortez Masto, I did not realize you wanted another round.
    Senator Cortez Masto. I appreciate that, and I will be 
brief because you have done an incredible job. And I appreciate 
the comments and the holistic approach that you have to helping 
individuals, Dr. Carson.
    There is one thing of interest to me, however, that you 
have talked about, which is public-private partnerships and the 
financing when it comes to public-private partnerships. I have 
not really had a conversation with you and what your thoughts 
are on how that would be addressed when it comes to housing and 
mortgages.
    Dr. Carson. When I talk about public-private partnerships, 
I am talking about having people in the private sector actually 
invest their own resources in either building or renovating or 
refurbishing housing that is then used by HUD to house people. 
So they have to obviously be incentivized in order to do that, 
but the big stumbling block is the initial capital to be able 
to get it done. And as long as they can realize a return on 
that capital investment--you know, this country was built on 
entrepreneurial risk taking, so that is always going to be a 
part of who we are, and that is what I want to capitalize upon.
    Senator Cortez Masto. So, in other words, are you 
envisioning a role for private equity capital to invest in the 
future housing growth and mortgages and housing for individuals 
and homeownership?
    Dr. Carson. I will be engaging in a number of conversations 
with the FHA Administrator, with this Committee, and with 
finance experts at HUD to figure out the best ways so that we 
can always have a win-win situation.
    Senator Cortez Masto. So what you are saying does concern 
me because of the fact that Nevada was a foreclosure crisis, 
Ground Zero for the foreclosure crisis, and a lot of that was 
money that we saw come in from Wall Street, big investments 
coming in for these mortgages, and individuals really at the 
end of the day lost their homes----
    Dr. Carson. But I think you are talking----
    Senator Cortez Masto. ----because there was an investment 
from Wall Street. So I am just curious. That is why if you 
could elaborate your thoughts on that.
    Dr. Carson. Yeah. I think you are talking about, you know, 
predatory people who came in and took advantage of people.
    Senator Cortez Masto. It was a combination. The big banks 
were involved as well with some of their teaser rates, but 
there was--Wall Street was involved, so that is why. And you 
know what? We can follow up on this individually. I just want 
to put that in your ear. That is a concern of mine and 
something I will be looking out for.
    Dr. Carson. I would look forward to working with you on 
that because I do not want those predators swooping in either.
    Senator Cortez Masto. Thank you. I appreciate that.
    Dr. Carson. All right.
    Chairman Crapo. All right. Thank you.
    With that, the questioning is concluded, and to all of the 
Senators, we ask that you get your questions for the record in 
by close of business on Tuesday, next Tuesday, close of 
business next Tuesday. And, Dr. Carson, we ask that you 
promptly respond to those so that we can move forward as 
promptly as we can.
    Dr. Carson. I will be happy to do that, and I want to thank 
you, Mr. Chairman, Mr. Vice Chairman, and all of the Committee 
Members, both present and absent, for what was actually kind of 
fun. Thank you.
    [Laughter.]
    Chairman Crapo. It is always better to be at this end of 
this kind of hearing rather than the beginning when you are 
sitting in that chair. Dr. Carson, thank you also for coming 
here and being well prepared. This hearing is now adjourned.
    [Whereupon, at 12:32 p.m., the hearing was adjourned.]
    [Prepared statements, biographical sketch of nominee, 
responses to written questions, and additional material 
supplied for the record follow:]
               PREPARED STATEMENT OF DR. BENJAMIN CARSON
      To Be Secretary, Department of Housing and Urban Development
                            January 12, 2017
    Mr. Chairman, Senator Brown, and distinguished Members of the 
Committee, thank you for the opportunity to appear before you today. 
And thank you to Senator Marco Rubio, who is dedicated to empowering 
and uplifting all Americans, for that kind introduction.
    Let me begin by thanking President-elect Trump for nominating me to 
be Secretary of Housing and Urban Development. I am grateful for his 
friendship, his trust and his confidence in my ability to work hard on 
behalf of the millions of Americans who rely on the services provided 
by HUD.
    I would also like to thank my wife Candy, to whom I have been 
married for the last 41 years, and who has been a pillar of strength 
for my family. All three of our three sons are here with me today as 
well.
    I grew up in inner city Detroit with a single mother who had a 3rd 
grade education, but who worked numerous jobs to keep a roof over our 
heads and to put food on our table. I understand housing insecurity--we 
were forced to move from Detroit to Boston to live with relatives 
because she couldn't afford our house. However, thanks to her 
diligence, were able to move back into that house in Detroit 6 years 
later.
    My mother showed me the power of perseverance, the importance of 
hard work, and inspired me to always achieve excellence. While my 
mother was one of many children in her family and married at the very 
young age of 13, the fact that I am her son--nominated to be a cabinet 
secretary--shows that great opportunity can be available to those who 
grow up in a challenging environment. Thanks to her, I am here today. 
She pushed me to excel beyond my wildest dreams. She instilled in me a 
love ofreading and learning, which is why I started the Carson Scholars 
Fund, a scholarship program my wife Candy and I started to help 
promising young students go to college. We've given 7,300 scholar 
awards since we founded the Carson Scholars Fund 20 years ago. We've 
also set up 160 reading rooms across America, mainly in Title I schools 
for low-income children, where, last year, those students logged 15 
million minutes of independent reading. \1\ Our long-term goal is to 
nurture the entire school where these are located and allow students to 
develop the skills necessary to become lifetime readers and learners.
---------------------------------------------------------------------------
     \1\ Carson Scholars Fund website. http://carsonscholars.org/about-
csf/our-impact/
---------------------------------------------------------------------------
    Mr. Chairman, I come before this Committee with the belief that 
anyone in America can, should, and will be able to achieve their 
dreams, but that sometimes the most basic needs prevent these people 
from reaching their potential. Simply put, it's difficult for a child 
to learn at school if he or she doesn't have an adequate place to live. 
In these situations, Government can and should help. However, I believe 
we need to ensure that the help we provide families is efficient and 
effective. It cannot, and should not, trap people in an 
intergenerational cycle of poverty.
    We must revisit the ways we do things in order to give people an 
opportunity to climb the economic and social ladder. Right now, social 
mobility has become stagnant. \2\ However, if we think holistically 
about this--we will know that it's more than just housing. We must 
include the areas of health care, education, jobs and the skills to do 
them, in addition to transportation, as we develop the best approach. 
In order to provide access to quality housing for the elderly, 
disabled, and low-income we need to work across silos, and I intend to 
do that at HUD, should you confirm me. I want to make America's 
neighborhoods stronger and more inclusive.
---------------------------------------------------------------------------
     \2\ Chetty, Raj. How Can We Improve Economic Opportunities for Our 
Children? The Equality of Opportunity Project. http://www.equality-of-
opportunity.org/
---------------------------------------------------------------------------
    We need to harness the power of all Americans if we are to compete 
globally--we cannot afford to leave anyone behind. It's a moral and 
economic imperative. Right now, China has a population of nearly 1.4 
billion people; \3\ India has almost 1.3 billion \4\--these countries 
have about 4 times as many people as we do. So we need to make sure all 
our citizens are productive and contributing, as they are able, to our 
Nation and our economy.
---------------------------------------------------------------------------
     \3\ The World Factbook. Central Intelligence Agency. https://
www.cia.gov/library/publications/the-world-factbook/geos/print_ch.html
     \4\ The World Factbook. Central Intelligence Agency. https://
www.cia.gov/library/publications/the-world-factbook/geos/in.html
---------------------------------------------------------------------------
    We need to empower people to pursue their dreams, including the 
American Dream. I have dedicated my life to serving those with the 
greatest need--either through the healing power of medicine or through 
encouraging young people to stay in school and go to college.
    As a physician, I am used to working on large surgical teams like I 
did to separate twins joined at the back of the head for the first time 
in history, and making detailed plans to develop creative ways to solve 
complex problems. I directed pediatric neurosurgery at Johns Hopkins, 
as well as serving on the boards of two major American companies--
Kellogg's and Costco--so I understand the private sector and the 
importance of results and accountability.
    Throughout my life, I have done things that many deemed impossible. 
I pledge to work with this Committee and the dedicated career staff at 
HUD to solve difficult, seemingly obstinate issues and address the 
needs of those who rely on the services provided by HUD.
    Many Members of this Committee with whom I've met have asked me why 
I would want to run HUD. It's a good question. I want to help heal 
America's divisiveness, and I think HUD is positioned to help in that 
healing. One of our biggest threats right now is this political 
division, racial conflict, and class warfare. It is ripping this 
country apart--we need to tamp down this animosity. As Jesus said and 
later Lincoln built on, ``a house divided against itself cannot 
stand.'' I see HUD as part of the solution, helping ensure housing 
security and strong communities. HUD has several different ways it 
helps people, through insuring financing for that first home to helping 
those in poverty, which has been an intractable problem for decades. 
The U.S. has 25 percent of the world's inmates, \5\ 72 percent of black 
babies are born out of wedlock, \6\ and one in every 5 children in the 
U.S. lives in poverty. \7\ Those are daunting numbers, and in the 
United States of America, it's a tragedy. We can do better.
---------------------------------------------------------------------------
     \5\ Liptak, Adam. ``Inmate Count in U.S. Dwarfs Other Nations'', 
New York Times, April 23, 2008. http://www.nytimes.com/2008/04/23/us/
23prison.html
     \6\ Blow, Charles. ``Black Dads Are Doing Best of All''. New York 
Times. June 8, 2015. https://www.nytimes.com/2015/06/08/opinion/
charles-blow-black-dads-are-doing-the-best-of-all.html?_r=2
     \7\ Layton, Lindsey. ``One in Five U.S. Schoolchildren Are Living 
Below Federal Poverty Line''. Washington Post. May 28, 2015. https://
www.washingtonpost.com/local/education/one-in-five-us-schoolchildren-
are-living-below-federal-poverty-line/2015/05/28/2402f164-0556-11e5-
bc72-f3e16bf50bb6_story.html?utm_term=.88271ab06537
---------------------------------------------------------------------------
    There is a strong connection between housing and health, which is 
of course my background. Housing (and housing discrimination) is a 
``social determinant'' of health. \8\ Substandard housing conditions 
such as pest infestation, the presence of lead paint, faulty plumbing, 
and overcrowding, which disproportionately affect low-income and 
minority families, lead to health problems such as asthma, lead 
poisoning, heart disease, and neurological disorders. \9\ These 
problems occur across America--in cities as well as suburbs and rural 
areas.
---------------------------------------------------------------------------
     \8\ Matthew, Dayna Bowen, Edward Rodrigue, and Richard V. Reeves. 
``Time for Justice: Tackling Race Inequalities in Health and Housing''. 
The Brookings Institution. October 19, 2016. https://www.brookings.edu/
research/time-for-justice-tackling-race-inequalities-in-health-and-
housing/
     \9\ Ibid.

  <bullet>  Most Americans spend about 90 percent of their time 
        indoors, and an estimated two-thirds of that time is spent in 
        the home. Very young children spend even more time at home and 
        are especially vulnerable to household hazards. I can tell you 
        that lead poisoning irreversibly affects brain and nervous 
        system development, resulting in lower intelligence and reading 
        disabilities. An estimated 310,000 children ages 1 to 5 have 
        elevated blood lead levels. Most lead exposures occur in the 
        home, particularly in homes built before 1978 that often 
---------------------------------------------------------------------------
        contain lead-based paint and lead in the plumbing systems.

  <bullet>  Deteriorating paint in older homes is the primary source of 
        lead exposure for children, who ingest paint chips and inhale 
        lead-contaminated dust. Between 1998 and 2000, a quarter of the 
        Nation's housing--24 million homes--was estimated to have 
        significant lead-based paint hazards.

  <bullet>  Substandard housing conditions such as water leaks, poor 
        ventilation, dirty carpets and pest infestation can lead to an 
        increase in mold, mites, and other allergens associated with 
        poor health leading to more medical costs. Indoor allergens and 
        damp housing conditions play an important role in the 
        development and exacerbation of respiratory conditions 
        including asthma, which currently affects over 20 million 
        Americans and is the most common chronic disease among 
        children. Approximately 40 percent of diagnosed asthma among 
        children is believed to be attributable to residential 
        exposures. In 2004, the cost of preventable hospitalizations 
        for asthma was $1.4 billion, a 30 percent increase from 2000. 
        \10\
---------------------------------------------------------------------------
     \10\ Robert Wood Johnson Clinical Scholars Program. ``Where We 
Live Matters for Our Health: The Links Between Housing and Health''. 
Craig Pollack, M.D., M.H.S., University of Pennsylvania Philadelphia VA 
Medical Center; Egerter, Susan Ph.D. Sadegh-Nobari, Tabashir, M.P.H. 
Dekker, Mercedes M.P.H., Braveman, Paula, M.D., M.P.H. University of 
California, San Francisco Center on Social Disparities in Health. 
September 2008. http://rwjcsp.unc.edu/about/news/
Pollack_RWJF_10032008.pdf

    I am passionate about health as you may have guessed, and where one 
lives should not cause health problems. So I look forward to working 
with HUD's Safe and Healthy Homes program and others on these issues. 
We cannot have social mobility without a strong healthy foundation in 
the home.
    There are other important issues for HUD as well. President-elect 
Trump has talked about the importance of deregulation. That applies to 
housing as well. Overly burdensome housing regulations are bad for 
everyone and are increasing income inequality. Research by Harvard 
professors found that by reducing the ability of people to move around 
within an economy and between different economies, strict land use 
regulations are reversing 100 years of income convergence across U.S. 
States. As housing prices in wealthy neighborhoods rise, migration of 
unskilled workers to those areas is deterred. But when land use for 
local housing supply is less regulated, workers of all skill types will 
choose to move to the productive locations. Many forms of land use 
regulation have perpetuated segregation. \11\ Complex webs of covenants 
and zoning ordinances across U.S. cities--in particular for low-density 
development--superimposed on already highly-segregated neighborhoods, 
have slowed integration. \12\ When there are wide economic gaps by 
race, as we have in the U.S., exclusionary land-use policies based on 
families' economic circumstances entrench racial segregation. \13\
---------------------------------------------------------------------------
     \11\ Shoag, Daniel and Peter Ganong. ``Why Has Regional Income 
Convergence Declined?'' Hutchins Center on Fiscal and Monetary Policy 
at Brookings Working Paper #21, August 4, 2016. https://
www.brookings.edu/wp-content/uploads/2016/08/wp21_ganong-
shoag_final.pdf
     \12\ ``Housing Development Toolkit'', The White House, September 
2016. https://www.whitehouse.gov/sites/whitehouse.gov/files/images/
Housing_Development_Toolkit%20f.2.pdf
     \13\ Resseger, Matthew. ``The Impact of Land Use Regulation on 
Racial Segregation: Evidence From Massachusetts Zoning Borders''. 
November 26, 2013. http://scholar.harvard.edu/files/resseger/files/
resseger_jmp_11_25.pdf
---------------------------------------------------------------------------
    Regulations also are costly. They increase the average price of a 
new home by over 24 percent according to the National Association of 
Home Builders. \14\ Those costs price out many young, first-time home 
buyers. Buying a home is the best way to build up an asset, and to live 
the American Dream. Housing dollars act as multipliers throughout the 
broader economy. In the 1990s, single-family home construction 
accounted for 2 percent of GDP; today, it's half that. \15\ We need to 
shore up our Nation's housing finance sector, and HUD plays a crucial 
role in the housing finance system through FHA and Ginnie Mae--helping 
borrowers with less than perfect credit or first-time homeowners get 
their toe in the door of a home they can call their own. But credit to 
purchase a house has been constricted since the 2008 crash and many 
younger households have been held back from buying that first home. 
\16\ With the Fed raising rates recently, mortgages are likely to get 
more expensive. \17\
---------------------------------------------------------------------------
     \14\ National Association of Home Builders. ``Eye on Housing: 
National Association of Home Builders Discusses Economics and Housing 
Policy''. May 5, 2016. http://eyeonhousing.org/2016/05/regulation-24-3-
percent-of-the-average-new-home-price/
     \15\ Timiraos, Nick. ``Credit Restrictions Cost Home Buyers `Deal 
of a Lifetime'.'' Wall Street Journal, December 4, 2016. http://
www.wsj.com/articles/credit-restrictions-cost-home-buyers-deal-of-a-
lifetime-1480874593
     \16\ Wharton School at the University of Pennsylvania,. ``Why 
Millennials Are Delaying Home Buying More Than Ever'', November 18, 
2015. http://knowledge.wharton.upenn.edu/article/why-millennials-are-
delaying-home-buying-more-than-ever/
     \17\ Russonello, Giovanni. ``How the Fed's Interest Rate Increase 
Can Affect You''. New York Times, December 14, 2016. https://
www.nytimes.com/2016/12/14/business/economy/how-the-feds-interest-rate-
increase-can-affect-you.html
---------------------------------------------------------------------------
    Loans are now bifurcated: \18\ the well-off have their pick of 
loans and lenders while many others without solid credit or stable 
incomes are locked out \19\--one of the reasons the economic recovery 
was slower than many would have liked. Homeownership rates have fallen 
on a year-over-year basis in every quarter for the last 10 years, and a 
surge in renting has dropped the homeownership rate to a 50-year low. 
\20\ Banks are loath to participate in low down payment programs 
through FHA for fear of getting sued if the borrowers default. So we 
need to make sure HUD and FHA are fulfilling their missions to help 
people build up an asset, like a home, which will help them climb up 
the rungs of the economic ladder.
---------------------------------------------------------------------------
     \18\ Timiraos, Nick. ``Credit Restrictions Cost Home Buyers `Deal 
of a Lifetime'.'' Wall Street Journal, December 4, 2016. http://
www.wsj.com/articles/credit-restrictions-cost-home-buyers-deal-of-a-
lifetime-1480874593
     \19\ Ibid.
     \20\ Timiraos, Nick. ``New Housing Headwind Looms as Fewer Renters 
Can Afford To Own''. Wall Street Journal, June 7, 2015. http://
www.wsj.com/articles/new-housing-crisis-looms-as-fewer-renters-can-
afford-to-own-1433698639
---------------------------------------------------------------------------
    Although homelessness is down, \21\ even among veterans, \22\ we 
must continue to tackle this problem by continuing to build strong 
partnerships with counties and cities across America through the 
Continuums of Care. \23\ I want to build on this progress--everyone 
should have a decent roof over their heads, and get treatment, job 
training, or whatever they need to help them achieve self-sufficiency. 
This strengthens our Nation and lightens the load for all.
---------------------------------------------------------------------------
     \21\ U.S. Department of Housing and Urban Development. ``The 2016 
Annual Homeless Assessment Report (AHAR) to Congress''. November 2016. 
https://www.hudexchange.info/resources/documents/2016-AHAR-Part-1.pdf
     \22\ U.S. Department of Veteran's Affairs. ``Veteran Homelessness 
Cut Nearly Half, Down 47 Percent Since 2010''. August 1, 2016. http://
www.blogs.va.gov/VAntage/29697/federal-agencies-announce-veteran-
veteran-homelessness-cut-nearly-half-down-47-percent-since-2010-cut-
more-than-half-since-2010/
     \23\ U.S. Department of Housing and Urban Development. ``Resources 
and Assistance to Support HUD's Community Partners: Continuums of 
Care''. https://www.hudexchange.info/programs/coc/
---------------------------------------------------------------------------
    HUD also helps communities through the CDBG program. It's a program 
with a long history that allocates nearly $3 billion per year \24\ to 
over 1,000 local communities \25\ for a variety of projects that 
benefit low- and moderate-income households. CDBG was, for example, 
very important during Hurricane Katrina, and I hope to evaluate how we 
can improve the program further. It's important for all HUD programs to 
be evaluated so we know what works and what doesn't and where we can 
cut red tape.
---------------------------------------------------------------------------
     \24\ U.S. Department of Housing and Urban Development. CPD 
Appropriations Budget. https://portal.hud.gov/hudportal/HUD?src=/
program_offices/comm_planning/about/budget
     \25\ U.S. Department of Housing and Urban Development. Community 
Development Block Grant Program--CDBG. https://portal.hud.gov/
hudportal/HUD?src=/program_offices/comm_planning/communitydevelopment/
programs
---------------------------------------------------------------------------
    My life story is an example of can happen when we dedicate 
ourselves to improving the lives of others. Everyone deserves a shot at 
the American Dream, and I intend to fight for those who are still 
trying to reach their full potential.
    Mr. Chairman, Senator Brown, Members of this Committee, there is a 
lot of work ahead of us. However, I'm confident that by working 
together and tackling the problems head-on, we can improve the lives of 
all families and communities across the country, wherever they live and 
no matter their race, creed, color, or orientation. If confirmed, I 
will work hard on behalf of the American people to help realize and 
seize opportunity, and bring the promise of America to all.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


              Additional Material Supplied for the Record

LETTERS AND STATEMENTS SUBMITTED IN SUPPORT OF THE NOMINATION OF DR. 




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



LETTERS AND STATEMENTS SUBMITTED IN OPPOSITION TO THE NOMINATION OF DR. 
                            BENJAMIN CARSON




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
